APPENDIX A
2019 IL 123910
NOTICE: THIS OPINION HAS NOT BEEN
RELEASED FOR PUBLICATION IN THE
PERMANENT LAW REPORTS. UNTIL RELEASED,
IT IS SUBJECT TO REVISION OR WITHDRAWAL.
Supreme Court of Illinois.
The PEOPLE of the State of Illinois, Appellant,
v.
Bethany AUSTIN, Appellee.
(Docket No. 123910)
Opinion filed October 18, 2019
OPINION
JUSTICE NEVILLE delivered the judgment of the
court, with opinion.
*1 ¶ 1 Defendant Bethany Austin was charged with
violating section 11-23.5(b) of the Criminal Code of
2012 (720 ILCS 5/11-23.5(b) (West 2016)), which
criminalizes the nonconsensual dissemination of
private sexual images. On defendant’s motion, the
circuit court of McHenry County dismissed the charge,
finding that provision facially unconstitutional as an
impermissible restriction on the right to free speech as
guaranteed by the United States and Illinois
1a

Constitutions. U.S. Const., amend. I; Ill. Const. 1970,
art. I, § 4. The State filed a direct appeal challenging
the judgment of the circuit court. Ill. S. Ct. R. 603 (eff.
Feb. 6, 2013). We now reverse and remand the cause
to the circuit court for further proceedings.
¶ 2 I. BACKGROUND
¶ 3 Defendant was engaged to be married to Matthew,
after the two had dated for more than seven years.
Defendant and Matthew lived together along with her
three children. Defendant shared an iCloud account
with Matthew, and all data sent to or from Matthew’s
iPhone went to their shared iCloud account, which was
connected to defendant’s iPad. As a result, all text
messages sent by or to Matthew’s iPhone
automatically were received on defendant’s iPad.
Matthew was aware of this data sharing arrangement
but took no action to disable it.
¶ 4 While Matthew and defendant were engaged and
living together, text messages between Matthew and
the victim, who was a neighbor, appeared on
defendant’s iPad. Some of the text messages included
nude photographs of the victim. Both Matthew and the
victim were aware that defendant had received the
pictures and text messages on her iPad. Three days
later, Matthew and the victim again exchanged several
text messages. The victim inquired, “Is this where you
don’t want to message [because] of her?” Matthew
responded, “no, I’m fine. [S]omeone wants to sit and
just keep watching want [sic] I’m doing I really do not
care. I don’t know why someone would wanna put
themselves through that.” The victim replied by
2a

texting, “I don’t either. Soooooo baby ....”
¶ 5 Defendant and Matthew cancelled their wedding
plans and subsequently broke up. Thereafter, Matthew
began telling family and friends that their relationship
had ended because defendant was crazy and no longer
cooked or did household chores.
¶ 6 In response, defendant wrote a letter detailing her
version of events. As support, she attached to the letter
four of the naked pictures of the victim and copies of
the text messages between the victim and Matthew.
When Matthew’s cousin received the letter along with
the text messages and pictures, he informed Matthew.
¶ 7 Upon learning of the letter and its enclosures,
Matthew contacted the police. The victim was
interviewed during the ensuing investigation and
stated that the pictures were private and only
intended for Matthew to see. The victim acknowledged
that she was aware that Matthew had shared an
iCloud account with defendant, but she thought it had
been deactivated when she sent him the nude
photographs.
*2 ¶ 8 Defendant was charged by indictment with one
count of nonconsensual dissemination of private sexual
images. 720 ILCS 5/11-23.5(b) (West 2016). She moved
to dismiss the charge, asserting, inter alia, that the
statute is facially unconstitutional because it is a
content-based restriction of speech that is not narrowly
tailored to serve a compelling government interest, in
violation of the federal and state constitutions. U.S.
Const., amend. I; Ill. Const. 1970, art. I, § 4.
3a

¶ 9 The State opposed defendant’s motion, arguing
that the type of speech restricted by the statute is not
constitutionally protected and that the statute is
narrowly tailored to serve a compelling government
interest.
¶ 10 The circuit court agreed with defendant that
section 11-23.5(b) imposes a restriction on speech
based on its content and is not narrowly tailored to
serve a compelling government interest. In compliance
with Illinois Supreme Court Rule 18 (eff. Sept. 1,
2006), the circuit court found section 11-23.5(b)
unconstitutional on its face. Because section 11-23.5(b)
was held invalid, the State appeals directly to this
court. Ill. S. Ct. R. 603 (eff. Feb. 6, 2013). We granted
the Cyber Rights Initiative leave to submit an amicus
curiae brief in support of the State. Ill. S. Ct. R. 345
(eff. Sept. 20, 2010).
¶ 11 II. ANALYSIS
¶ 12 Before this court, the State argues that the circuit
court erred in finding section 11-23.5(b) facially
unconstitutional because the public distribution of
truly private facts is not constitutionally protected. In
the alternative, the State asserts that, even if such
speech is protected, section 11-23.5(b) is
constitutionally valid because it is narrowly tailored to
serve a compelling government interest.
¶ 13 Defendant responds by contending that the circuit
court correctly found the statute to be unconstitutional
because it outlaws protected content-based speech in
violation of the United States and Illinois
4a

Constitutions. U.S. Const., amend. I; Ill. Const. 1970,
art. I, § 4. She further argues that the distribution of
nude images that have been disclosed to another
person is constitutionally protected because such
images are not truly private facts as the State
contends.
¶ 14 The issue of whether a statute is constitutional
presents a question of law, which we review de novo.
People v. Minnis, 2016 IL 119563, ¶ 21, 409 Ill.Dec. 60,
67 N.E.3d 272. All statutes are presumed to be
constitutional, and the party challenging a statute’s
constitutionality bears the burden of clearly
establishing its invalidity. Id. In addition, a court must
construe a statute so as to uphold its constitutionality,
if reasonably possible. Id.
¶ 15 To resolve this appeal, we must construe section
11-23.5(b) because a court cannot determine whether
a statute reaches beyond constitutional limits without
first knowing what the statute covers. Id. ¶ 25 (citing
United States v. Stevens, 559 U.S. 460, 474, 130 S.Ct.
1577, 176 L.Ed.2d 435 (2010)). When presented with
an issue of statutory construction, this court’s primary
objective is to ascertain and give effect to the intent of
the legislature. Oswald v. Hamer, 2018 IL 122203, ¶
10, 425 Ill.Dec. 626, 115 N.E.3d 181; Minnis, 2016 IL
119563, ¶ 25, 409 Ill.Dec. 60, 67 N.E.3d 272. The most
reliable indicator of legislative intent is the language
of the statute, given its plain and ordinary meaning.
Oswald, 2018 IL 122203, ¶ 10, 425 Ill.Dec. 626, 115
N.E.3d 181; Minnis, 2016 IL 119563, ¶ 25, 409 Ill.Dec.
60, 67 N.E.3d 272. A court will not read language in
isolation and must view the statute as a whole,
5a

construing words and phrases in light of other relevant
statutory provisions. Carmichael v. Laborers’ &

Retirement Board Employees’ Annuity & Benefit
Fund, 2018 IL 122793, ¶ 35, 429 Ill.Dec. 677, 125
N.E.3d 383; Oswald, 2018 IL 122203, ¶ 10, 425 Ill.Dec.

626, 115 N.E.3d 181. Each word, clause, and sentence
of a statute must be given a reasonable meaning, if
possible, and should not be rendered superfluous.
Oswald, 2018 IL 122203, ¶ 10, 425 Ill.Dec. 626, 115
N.E.3d 181; Murphy-Hylton v. Lieberman
Management Services, Inc., 2016 IL 120394, ¶ 25, 410
Ill.Dec. 937, 72 N.E.3d 323. Additionally, we must
presume that the legislature did not intend to create
absurd, inconvenient, or unjust results. Carmichael,
2018 IL 122793, ¶ 35, 429 Ill.Dec. 677, 125 N.E.3d 383;
Minnis, 2016 IL 119563, ¶ 25, 409 Ill.Dec. 60, 67
N.E.3d 272. It is also proper for the court to consider
the reason for the law, the problems sought to be
remedied, the purposes to be achieved, and the
consequences of construing the statute one way or
another. Carmichael, 2018 IL 122793, ¶ 35, 429
Ill.Dec. 677, 125 N.E.3d 383; Murphy-Hylton, 2016 IL
120394, ¶ 25, 410 Ill.Dec. 937, 72 N.E.3d 323.
¶ 16 A. The Necessity for the Law
*3 ¶ 17 Section 11-23.5 addresses the problem of
nonconsensual dissemination of private sexual images,
which is colloquially referred to as “revenge porn.”
Generally, the crime involves images originally
obtained without consent, such as by use of hidden
cameras or victim coercion, and images originally
obtained with consent, usually within the context of a
private or confidential relationship. Once obtained,
6a

these images are subsequently distributed without
consent. Danielle Keats Citron & Mary Anne Franks,
Criminalizing Revenge Porn, 49 Wake Forest L. Rev.
345, 346 (2014); see Adrienne N. Kitchen, The Need to

Criminalize Revenge Porn: How a Law Protecting
Victims Can Avoid Running Afoul of the First
Amendment, 90 Chi.-Kent L. Rev. 247, 247-48 (2015).
¶ 18 The colloquial term “revenge porn” obscures the
gist of the crime:
“In essence, the crux of the definition of
revenge porn lies in the fact that the
victim did not consent to its
distribution—though the victim may
have consented to its recording or may
have taken the photo or video
themselves. As a result, the rise of
revenge porn has (unsurprisingly) gone
hand-in-hand with the increasing use of
social media and the Internet, on which
people constantly exchange ideas and
images without asking permission from
the originator.” (Emphasis in original.)
Christian Nisttáhuz, Fifty States of

Gray: A Comparative Analysis of
‘Revenge-Porn’ Legislation Throughout
the United States and Texas’s
Relationship Privacy Act, 50 Tex. Tech.
L. Rev. 333, 337 (2018).

Indeed, the term “revenge porn,” though commonly
used, is misleading in two respects. First, “revenge”
connotes personal vengeance. However, perpetrators
7a

may be motivated by a desire for profit, notoriety,
entertainment, or for no specific reason at all. The only
common factor is that they act without the consent of
the person depicted. Second, “porn” misleadingly
suggests that visual depictions of nudity or sexual
activity are inherently pornographic. Mary Anne
Franks, “Revenge Porn” Reform: A View From the
Front Lines, 69 Fla. L. Rev. 1251, 1257-58 (2017); see
Diane Bustamante, Florida Joins the Fight Against

Revenge Porn: Analysis of Florida’s New Anti-Revenge
Porn Law, 12 Fla. Int’l. U. L. Rev. 357, 364 (2017).
¶ 19 This is a unique crime fueled by technology:
“We do not live in a world where
thousands of websites are devoted to
revealing private medical records, credit
card numbers, or even love letters. By
contrast, ‘revenge porn’ is featured in as
many as 10,000 websites, in addition to
being distributed without consent
through social media, blogs, emails, and
texts. There is a demand for private nude
photos that is unlike the demand for any
other form of private information. While
nonconsensual pornography is not a new
phenomenon, its prevalence, reach, and
impact have increased in recent years in
part because technology and social media
make it possible to ‘crowdsource’ abuse,
as well as make it possible for
unscrupulous individuals to profit from
it. Dedicated ‘revenge porn’ sites and
other forums openly solicit private
8a

intimate images and expose them to
millions of viewers, while allowing the
posters themselves to hide in the
shadows.” Franks, supra, at 1260-61.
Because the nonconsensual dissemination of private
sexual images “so often involves the Internet and
social media, the public, law enforcement, and the
judiciary sometimes struggle to understand the
mechanics of the conduct and the devastation it can
cause.” Citron & Franks, supra, at 347.
¶ 20 For example, in the course of its analysis, the
circuit court speculated as follows:
*4 “[W]hen a girlfriend texts a nude selfie
to a third party—her boyfriend—she
gives up all expectations of privacy in the
images. And if she cannot reasonably
expect that the image remain private,
then didn’t the act of sharing it in the
first place demonstrate she never
intended the image to remain private?”
(Emphasis in original.)
Such postulating is refuted by reams of scholarship.
Moreover, the above comments reflect a fundamental
misunderstanding of the nature of such
communications. Given the circuit court’s factual
starting point, the boyfriend to whom a nude selfie is
sent is the second party to the private
communication—not a third party. As a consequence,
a girlfriend who transmits such a photo does not
automatically relinquish “all expectations of privacy in
9a

the images,” as the circuit court hypothesized.
Contrary to the circuit court’s conclusion, the sharing
of a private sexual image in a personal and direct
communication with an intended recipient does not
demonstrate that the transmission was never intended
to remain private.
¶ 21 Consent is contextual. “The consent to create and
send a photo or the consent to be photographed by
another is one act of consent that cannot be equated
with consenting to distribute that photo to others
outside of the private relationship * * *.” Erica Souza,

“For His Eyes Only”: Why Federal Legislation Is
Needed to Combat Revenge Porn, 23 UCLA Women’s
L.J. 101, 109-10 (2016); see Citron & Franks, supra, at

354-56 (same). Accordingly, criminal liability here does
not depend on “whether the image was initially
obtained with the subject’s consent; rather, it is the
absence of consent to the image’s distribution that
renders the perpetrator in violation of the law.” Ava
Schein, Note, When Sharing Is Not Caring: Creating

an Effective Criminal Framework Free From Specific
Intent Provisions to Better Achieve Justice for Victims
of Revenge Pornography, 40 Cardozo L. Rev. 1953,

1955-56 (2019). The nonconsensual dissemination of
private sexual images “is not wrong because nudity is
shameful or because the act of recording sexual
activity is inherently immoral. It is wrong because
exposing a person’s body against her will
fundamentally deprives that person of her right to
privacy.” Franks, supra, at 1260.

¶ 22 The breadth of the problem is staggering. Four
percent of American Internet users “have either had
10a

intimate images posted online without their consent or
have been threatened with this heinous act. * * *
[This] is a serious social problem that has a
devastating impact on those victimized by it. The 4
percent of American internet users affected by it
amounts to millions of individuals.” Carrie Goldberg &
Adam Massey, State-Sanctioned Humiliation: Why

New York Needs a Nonconsensual Pornography Law,
89 N.Y. St. B. Ass’n J. 48, 50 (May 2017); see Schein,
supra, at 1960 (both citing Amanda Lenhart et al.,

Nonconsensual Image Sharing: One in 25 Americans
Has Been a Victim of “Revenge Porn,” Data and

Society Research Institute (Dec. 13, 2016),
https://datasociety.net/pubs/oh/Nonconsensual_Imag
e_Sharing_2016.pdf [https://perma.cc/3XPC-UF64] ).

¶ 23 The overwhelming majority of state legislatures
have enacted laws criminalizing the nonconsensual
dissemination of private sexual images. In 2004, New
Jersey was the first state to enact such a statute.
Schein, supra, at 1973. By 2013, only Alaska and
Texas followed suit. However, between 2013 and 2017,
36 additional states enacted criminal statutes,
bringing the total to 39. See Franks, supra, at 1280-81.
In 2015, Illinois enacted its statute (Pub. Act 98-1138,
§ 5 (eff. June 1, 2015) (enacting 720 ILCS 5/11-23.5)).
To date, 46 states and the District of Columbia have
enacted legislation prohibiting this conduct. 46 States
+ DC + One Territory Now Have Revenge Porn Laws,
Cyber Civil Rights Initiative, http://www.
cybercivilrights.org/revenge-porn-laws (last visited
July 15, 2019) [https://perma.cc/JUX4-B4GK]; see
Schein, supra, at 1973-74 (citing website when it listed
43 states). These statutes “vary widely throughout the
11a

United States, each with their own base elements,
intent requirements, exceptions, definitions, and
penalties.” Nisttáhuz, supra, at 357. “The mass
adoption of these statutes by states on opposite sides
of the political spectrum reflects the urgency of the
problem.” Goldberg & Massey, supra, at 50.
¶ 24 B. The General Assembly’s Solution
*5 ¶ 25 Against this historical and societal backdrop,
we consider the terms of the statutory provision at
issue. Section 11-23.5(b) provides as follows:
“(b) A person commits non-consensual
dissemination of private sexual images
when he or she:
(1) intentionally disseminates an image
of another person:
and

(A) who is at least 18 years of age;

(B) who is identifiable from the
image itself or information displayed in
connection with the image; and
(C) who is engaged in a sexual act
or whose intimate parts are exposed, in
whole or in part; and
(2)
obtains
the
image
under
circumstances in which a reasonable
person would know or understand that
12a

the image was to remain private; and
(3) knows or should have known that the
person in the image has not consented to
the dissemination.” 720 ILCS 5/1123.5(b) (West 2016).
A person convicted under section 11-23.5(b) is subject
to forfeiture sanctions. Id. § 11-23.5(e). Also, the crime
is a Class 4 felony. Id. § 11-23.5(f).
¶ 26 C. Preliminary Findings
¶ 27 We observe that we cannot avoid addressing the
constitutionality of section 11-23.5(b). A court will not
consider constitutional issues where a case can be
decided on other grounds. People v. Nash, 173 Ill. 2d
423, 432, 220 Ill.Dec. 154, 672 N.E.2d 1166 (1996);
People ex rel. Waller v. 1990 Ford Bronco, 158 Ill. 2d
460, 464-65, 199 Ill.Dec. 694, 634 N.E.2d 747 (1994). In
this case, section 11-23.5(b) covers defendant’s alleged
conduct, and no other justification for the circuit
court’s judgment has been asserted. Therefore, as the
circuit court found, it is proper to reach the
constitutional issues presented. See, e.g., United
States v. Grace, 461 U.S. 171, 175-76, 103 S.Ct. 1702,
75 L.Ed.2d 736 (1983).
¶ 28 Additionally, the circuit court determined that
section 11-23.5(b) is facially unconstitutional because
it is a content-based restriction of speech in violation
of the first amendment. Notably, after finding that the
statute violated the first amendment, the court held,
without specific analysis, that the statute also violated
13a

Illinois’s constitutional free speech guaranty (Ill.
Const. 1970, art. I, § 4). Further, before this court, the
parties do not offer any arguments specifically
addressing our state constitutional free speech
guaranty. Therefore, we consider only federal
constitutional principles. See, e.g., Pooh-Bah
Enterprises, Inc. v. County of Cook, 232 Ill. 2d 463,
502-03, 328 Ill.Dec. 892, 905 N.E.2d 781 (2009).
¶ 29 D. First Amendment
¶ 30 The first amendment, which applies to the states
through the fourteenth amendment, provides that
government “shall make no law * * * abridging
freedom of speech.” U.S. Const., amends. I, XIV; De
Jonge v. Oregon, 299 U.S. 353, 364, 57 S.Ct. 255, 81
L.Ed. 278 (1937). “[T]he First Amendment, subject
only to narrow and well-understood exceptions, does
not countenance governmental control over the content
of messages expressed by private individuals.” Turner

Broadcasting System, Inc. v. Federal Communications
Comm’n, 512 U.S. 622, 641, 114 S.Ct. 2445, 129
L.Ed.2d 497 (1994); see also Stevens, 559 U.S. at 468,

130 S.Ct. 1577 (stating that “the First Amendment
means that government has no power to restrict
expression because of its message, its ideas, its subject
matter, or its content”); R.A.V. v. City of St. Paul, 505
U.S. 377, 382, 112 S.Ct. 2538, 120 L.Ed.2d 305 (1992)
(stating that the first amendment “generally prevents
government from proscribing speech * * * because of
disapproval of the ideas expressed”).
*6 ¶ 31 The United States Supreme Court has held
that the dissemination of information is speech within
14a

the meaning of the first amendment. Sorrell v. IMS
Health, Inc., 564 U.S. 552, 570, 131 S.Ct. 2653, 180
L.Ed.2d 544 (2011); see Bartnicki v. Vopper, 532 U.S.

514, 527, 121 S.Ct. 1753, 149 L.Ed.2d 787 (2001).
Accordingly, “[a]n individual’s right to speak is
implicated when information he or she possesses is
subjected to ‘restraints on the way in which the
information might be used or disseminated.’ ” Sorrell,
564 U.S. at 568, 131 S.Ct. 2653 (quoting Seattle Times
Co. v. Rhinehart, 467 U.S. 20, 32, 104 S.Ct. 2199, 81
L.Ed.2d 17 (1984)). Also, the Supreme Court has held
that first amendment protections for speech extend
fully to Internet communications See Reno v.
American Civil Liberties Union, 521 U.S. 844, 870, 117
S.Ct. 2329, 138 L.Ed.2d 874 (1997) (explaining that
Supreme Court case law “provide[s] no basis for
qualifying the level of First Amendment scrutiny that
should be applied to this medium”); Minnis, 2016 IL
119563, ¶ 23, 409 Ill.Dec. 60, 67 N.E.3d 272 (same).
We also recognize that “whatever the challenges of
applying the Constitution to ever-advancing
technology,” the basic first amendment principles of
freedom of speech do not vary “when a new and
different medium for communication appears.” Brown
v. Entertainment Merchants Ass’n, 564 U.S. 786, 790,
131 S.Ct. 2729, 180 L.Ed.2d 708 (2011).
¶ 32 1. No Categorical Exception
¶ 33 In the case at bar, the State asks this court to
recognize the nonconsensual dissemination of private
sexual images as “a category of speech that has not
been protected as a historical matter.” There are
categories of speech that are “ ‘of such slight social
15a

value as a step to truth that any benefit that may be
derived from them is clearly outweighed by the social
interest in order and morality.’ ” R.A.V., 505 U.S. at
383, 112 S.Ct. 2538 (quoting Chaplinsky v. New
Hampshire, 315 U.S. 568, 572, 62 S.Ct. 766, 86 L.Ed.
1031 (1942)). These categories include incitement,
obscenity, defamation, speech integral to criminal
conduct, fighting words, child pornography, fraud, true
threats, and speech presenting some grave and
imminent threat the government has the power to
prevent. United States v. Alvarez, 567 U.S. 709, 717,
132 S.Ct. 2537, 183 L.Ed.2d 574 (2012) (collecting
cases); Stevens, 559 U.S. at 468, 130 S.Ct. 1577
(same). These categories of speech are well-defined and
narrowly limited, and “ ‘the prevention and
punishment of which have never been thought to raise
any Constitutional problem.’ ” Stevens, 559 U.S. at
468-69, 130 S.Ct. 1577 (quoting Chaplinsky, 315 U.S.
at 571-72, 62 S.Ct. 766). These categories are outside
the area of constitutionally protected speech, and the
protection of the first amendment does not extend to
them. R.A.V., 505 U.S. at 383, 112 S.Ct. 2538.
¶ 34 The United States Supreme Court has rejected a
free-floating test for first amendment coverage that
balances the relative social costs and benefits on an ad
hoc basis. Rather, the Supreme Court has permitted
content-based restrictions where confined to the few
historic, traditional, and long-familiar categories of
expression. Alvarez, 567 U.S. at 717, 132 S.Ct. 2537;
Stevens, 559 U.S. at 468, 470, 130 S.Ct. 1577. The
Supreme Court has observed: “Maybe there are some
categories of speech that have been historically
unprotected, but have not yet been specifically
16a

identified or discussed as such in our case law.”
Stevens, 559 U.S. at 472, 130 S.Ct. 1577. However, the
above-listed categories of unprotected speech “have a
historical foundation in the Court’s free speech
tradition.” Alvarez, 567 U.S. at 718, 132 S.Ct. 2537.
¶ 35 In this case, the circuit court found that the
targeted speech did not fit into any categorical first
amendment exception. Before this court, the State
argues that “state laws protecting individual privacy
rights have long been established.” According to the
State, “history supports the conclusion that States may
regulate speech that invades privacy without violating
the First Amendment.”
¶ 36 We decline the State’s invitation to identify a new
category of speech that falls outside of first
amendment protection. The nonconsensual
dissemination of private sexual images, prohibited by
section 11-23.5(b) of the Criminal Code (720 ILCS
5/11-23.5(b) (West 2016)), does not fall within an
established first amendment categorical exception. We
acknowledge, as did the Vermont Supreme Court, that
the nonconsensual dissemination of private sexual
images “seems to be a strong candidate for categorical
exclusion from full First Amendment protections”
based on “[t]he broad development across the country
of invasion of privacy torts, and the longstanding
historical pedigree of laws protecting the privacy of
nonpublic figures with respect to matters of only
private interest without any established First
Amendment limitations.” State v. VanBuren, 2018 VT
95, ¶ 43, 214 A.3d 791. However, we decline to identify
a new categorical first amendment exception when the
17a

United States Supreme Court has not yet addressed
the question. See id. ¶ 46. Nevertheless, the
consideration of individual privacy that would support
the articulation of a first amendment categorical
exclusion in this case will carry weight later in our
analysis.
*7 ¶ 37 Thus far, we have concluded that section 1123.5(b) implicates the freedom of speech and that the
targeted speech does not fit into any first amendment
categorical exception. Therefore, first amendment
scrutiny is warranted. We must next determine the
appropriate level of scrutiny for the statute.
¶ 38 2. Degree of Scrutiny
¶ 39 The United States Supreme Court has long held
“[c]ontent-based prohibitions, enforced by severe
criminal penalties, have the constant potential to be a
repressive force in the lives and thoughts of a free
people. To guard against that threat the Constitution
demands that content-based restrictions on speech be
presumed invalid.” Ashcroft v. American Civil
Liberties Union, 542 U.S. 656, 660, 124 S.Ct. 2783, 159
L.Ed.2d 690 (2004); see R.A.V., 505 U.S. at 382, 112
S.Ct. 2538 (stating that content-based regulations are
presumptively invalid); City of Renton v. Playtime
Theatres, Inc., 475 U.S. 41, 46-47, 106 S.Ct. 925, 89
L.Ed.2d 29 (1986) (same). Generally, “laws that by
their terms distinguish favored speech from disfavored
speech on the basis of the ideas or views expressed are
content based.” Turner Broadcasting System, 512 U.S.
at 643, 114 S.Ct. 2445.
18a

¶ 40 Accordingly, courts “apply the most exacting
scrutiny to regulations that suppress, disadvantage, or
impose differential burdens upon speech because of its
content.” Id. at 642, 114 S.Ct. 2445. A content-based
law is justified only if it survives strict scrutiny, which
requires the government to demonstrate that the law
is narrowly tailored to serve a compelling state
interest. Reed v. Town of Gilbert, 576 U.S. ––––, ––––,
135 S. Ct. 2218, 2226, 192 L.Ed.2d 236 (2015). “The
State must specifically identify an ‘actual problem’ in
need of solving [citation], and the curtailment of free
speech must be actually necessary to the solution
[citation].” Brown, 564 U.S. at 799, 131 S.Ct. 2729. In
other words, if a less restrictive alternative would
serve a governmental purpose, a legislature must use
that alternative. United States v. Playboy
Entertainment Group, Inc., 529 U.S. 803, 813, 120
S.Ct. 1878, 146 L.Ed.2d 865 (2000).
¶ 41 In the case at bar, the circuit court found that
section 11-23.5(b) “is a content-based speech
restriction because it doesn’t target all pictures, videos,
depictions, and portrayals, but only those showing
nudity or sexual activity.” In both the circuit court and
before this court, the parties premised their arguments
on the assumption that section 11-23.5(b) must survive
strict scrutiny to be found constitutional.
¶ 42 However, because this is a first amendment case,
we, as a court of review, must decide independently
“whether a given course of conduct falls on the near or
far side of the line of constitutional protection.” Hurley

v. Irish-American Gay, Lesbian & Bisexual Group of
Boston, 515 U.S. 557, 567, 115 S.Ct. 2338, 132 L.Ed.2d
19a

487 (1995); see Boy Scouts of America v. Dale, 530 U.S.
640, 648-49, 120 S.Ct. 2446, 147 L.Ed.2d 554 (2000). In
any event, if the State arguably is considered to have
conceded the applicability of strict scrutiny, “it is well
established that we, as a court of review, are not bound
by a party’s concession.” People v. Carter, 2015 IL
117709, ¶ 22, 398 Ill.Dec. 62, 43 N.E.3d 972 (citing
Beacham v. Walker, 231 Ill. 2d 51, 60-61, 324 Ill.Dec.
541, 896 N.E.2d 327 (2008)).
¶ 43 In contrast to content-based speech restrictions,
“regulations that are unrelated to the content of
speech are subject to an intermediate level of scrutiny
[citation] because in most cases they pose a less
substantial risk of excising certain ideas or viewpoints
from the public dialogue.” Turner Broadcasting
System, 512 U.S. at 642, 114 S.Ct. 2445. We conclude
that section 11-23.5(b) is subject to an intermediate
level of scrutiny for two independent reasons. First,
the statute is a content-neutral time, place, and
manner restriction. Second, the statute regulates a
purely private matter.
¶ 44 a. Time, Place, and Manner
*8 ¶ 45 It is generally understood “that the First
Amendment does not guarantee the right to
communicate one’s views at all times and places or in
any manner that may be desired.” Heffron v.
International Society for Krishna Consciousness, 452
U.S. 640, 647, 101 S.Ct. 2559, 69 L.Ed.2d 298 (1981).
Laws that “impose burdens on speech without
reference to the ideas or views expressed are in most
instances content neutral.” Turner Broadcasting
20a

System, 512 U.S. at 643, 114 S.Ct. 2445 (and cases
cited therein). “The principal inquiry in determining
content neutrality, in speech cases generally and in
time, place, or manner cases in particular, is whether
the government has adopted a regulation of speech
because of disagreement with the message it conveys.”
Ward v. Rock Against Racism, 491 U.S. 781, 791, 109
S.Ct. 2746, 105 L.Ed.2d 661 (1989). Government
regulation of speech “is content neutral so long as it is
justified without reference to the content of the
regulated speech.” (Emphasis in original and internal
quotation marks omitted.) Id.
¶ 46 Determining “whether a particular regulation is
content based or content neutral is not always a simple
task.” Turner Broadcasting System, 512 U.S. at 642,
114 S.Ct. 2445. We recognize that section 11-23.5(b) on
its face targets the dissemination of a specific category
of speech—sexual images. However, the statute is
content neutral. “A regulation that serves purposes
unrelated to the content of expression is deemed
neutral, even if it has an incidental effect on some
speakers or messages but not others.” Ward, 491 U.S.
at 791, 109 S.Ct. 2746 (citing City of Renton, 475 U.S.
at 47-48, 106 S.Ct. 925).
¶ 47 We find City of Renton instructive. That case
involved the first amendment validity of a Renton,
Washington, zoning regulation of adult movie theaters.
The Supreme Court observed that the Renton
ordinance “does not appear to fit neatly into either the
‘content-based’ or the ‘content-neutral’ category. To be
sure, the ordinance treats theaters that specialize in
adult films differently from other kinds of theaters.”
21a

City of Renton, 475 U.S. at 47, 106 S.Ct. 925.
Nevertheless, the Court concluded that the ordinance
was “aimed not at the content of the films shown at
‘adult motion picture theatres,’ but rather at the
secondary effects of such theaters on the surrounding
community.” (Emphases in original.) Id. The Supreme
Court agreed with the lower court that “the City
Council’s ‘predominate concerns’ were with the
secondary effects of adult theaters, and not with the
content of adult films themselves.” (Emphasis in
original.) Id.
¶ 48 Further, in Turner Broadcasting System, the
Court recognized that “[r]egulations that discriminate
among media, or among different speakers within a
single medium, often present serious First
Amendment concerns.” Turner Broadcasting System,
512 U.S. at 659, 114 S.Ct. 2445. Nevertheless, the
Court further instructed that “[i]t would be error to
conclude, however, that the First Amendment
mandates strict scrutiny for any speech regulation that
applies to one medium (or a subset thereof) but not
others.” Id. at 660, 114 S.Ct. 2445. These cases instruct
that the proper focus is on whether the government
has addressed a category of speech to suppress
discussion of that topic.
¶ 49 In the case at bar, section 11-23.5(b) is justified
on the grounds of protecting privacy. Section 11-23.5(b)
distinguishes the dissemination of a sexual image not
based on the content of the image itself but, rather,
based on whether the disseminator obtained the image
under circumstances in which a reasonable person
would know that the image was to remain private and
22a

knows or should have known that the person in the
image has not consented to the dissemination. 720
ILCS 5/11-23.5(b)(2), (b)(3) (West 2016). There is no
criminal liability for the dissemination of the very
same image obtained and distributed with consent.
The manner of the image’s acquisition and publication,
and not its content, is thus crucial to the illegality of
its dissemination. See, e.g., Turner Broadcasting
System, 512 U.S. at 645, 114 S.Ct. 2445
(acknowledging that the statutory “provisions
distinguish between speakers in the television
programming market. But they do so based only upon
the manner in which speakers transmit their messages
to viewers, and not upon the messages they carry * *
*.”). “So long as they are not a subtle means of
exercising a content preference, speaker distinctions of
this nature are not presumed invalid under the First
Amendment.” Id.
*9 ¶ 50 Section 11-23.5 does not prohibit but, rather,
regulates the dissemination of a certain type of private
information. Viewed as a privacy regulation, section
11-23.5 is similar to laws prohibiting the unauthorized
disclosure of other forms of private information, such
as medical records (410 ILCS 50/3(d) (West 2016)),
biometric data (740 ILCS 14/15 (West 2016)), or Social
Security numbers (5 ILCS 179/10 (West 2016)). The
entire field of privacy law is based on the recognition
that some types of information are more sensitive than
others, the disclosure of which can and should be
regulated. To invalidate section 11-23.5 would cast
doubt on the constitutionality of these and other
statutes that protect the privacy rights of Illinois
residents.
23a

¶ 51 Content-neutral laws are subject to an
intermediate level of scrutiny because they generally
present a less substantial risk of excising certain ideas
or viewpoints from the public dialogue. Minnis, 2016
IL 119563, ¶ 33, 409 Ill.Dec. 60, 67 N.E.3d 272 (citing
Turner Broadcasting System, 512 U.S. at 642, 114
S.Ct. 2445). Section 11-23.5(b) meets this standard.
¶ 52 b. Purely Private Matter
¶ 53 We conclude that section 11-23.5(b) is subject to
an intermediate level of scrutiny also because the
statute regulates a purely private matter. Speech on
matters of public concern lies at the heart of first
amendment protection. The first amendment reflects
a national commitment to the principle that debate on
public issues should be robust and uninhibited.
Accordingly, speech on public issues occupies the
highest position of the hierarchy of first amendment
values and is entitled to special protection. Snyder v.
Phelps, 562 U.S. 443, 451-52, 131 S.Ct. 1207, 179
L.Ed.2d 172 (2011) (and cases cited therein).
¶ 54 However, first amendment protections are less
rigorous where matters of purely private significance
are at issue:
“That is because restricting speech on
purely private matters does not implicate
the same constitutional concerns as
limiting speech on matters of public
interest: ‘[T]here is no threat to the free
and robust debate of public issues; there
is no potential interference with a
24a

meaningful dialogue of ideas’; and the
‘threat of liability’ does not pose the risk
of ‘a reaction of self-censorship’ on
matters of public import.” Id. at 452, 131
S.Ct. 1207 (quoting Dun & Bradstreet,
Inc. v. Greenmoss Builders, Inc., 472 U.S.
749, 760, 105 S.Ct. 2939, 86 L.Ed.2d 593
(1985)).
“While such speech is not totally unprotected by the
First Amendment [citation], its protections are less
stringent.” Dun & Bradstreet, 472 U.S. at 760, 105
S.Ct. 2939.
¶ 55 The Supreme Court has articulated some guiding
factors:
“Speech deals with matters of public
concern when it can be fairly considered
as relating to any matter of political,
social, or other concern to the community
[citation], or when it is a subject of
legitimate news interest; that is, a
subject of general interest and of value
and concern to the public [citation].
[Citations.] The arguably inappropriate
or controversial character of a statement
is irrelevant to the question whether it
deals with a matter of public concern.”
(Internal quotation marks omitted.)
Snyder, 562 U.S. at 453, 131 S.Ct. 1207.
Deciding whether speech is of public or private concern
requires an examination of the content, form, and
25a

context of that speech, as revealed by the entire record.
Id. “In considering content, form, and context, no
factor is dispositive, and it is necessary to evaluate all
the circumstances of the speech, including what was
said, where it was said, and how it was said.” Id. at
454, 131 S.Ct. 1207.
¶ 56 Applying these principles to the instant case, we
have no difficulty in concluding that the
nonconsensual dissemination of the victim’s private
sexual images was not an issue of public concern.
Matthew was telling his and defendant’s families and
friends that it was defendant’s fault that their
relationship ended. Defendant responded with a letter,
in which she explained her version of events. To this
letter defendant attached the victim’s private sexual
images along with text messages between the victim
and Matthew. The victim’s private sexual images, in
context with her and Matthew’s text messages, were
never in the public domain. They do not relate to any
broad issue of interest to society at large. The message
they convey is not a matter of public import. Cf. id.
(holding that messages on protest signs at a private
funeral related to broad issues of interest to society at
large and were matters of public import). Rather, the
public has no legitimate interest in the private sexual
activities of the victim or in the embarrassing facts
revealed about her life. See United States v. Petrovic,
701 F.3d 849, 856 (8th Cir. 2012) (nonconsensual
dissemination of a victim’s private nude photos “may
be proscribed consistent with the First Amendment”).
*10 ¶ 57 In sum, section 11-23.5(b) does not pose such
inherent dangers to free expression or present such
26a

potential for censorship or manipulation as to justify
application of strict scrutiny. Therefore, the
appropriate standard to apply is the intermediate level
of first amendment scrutiny. See Turner Broadcasting
System, 512 U.S. at 661-62, 114 S.Ct. 2445.
¶ 58 3. Applying Intermediate Scrutiny
¶ 59 In the context of the first amendment’s guaranty
of freedom of speech, intermediate scrutiny is
variously described in similar forms. Generally, to
survive intermediate scrutiny, the law must serve an
important or substantial governmental interest
unrelated to the suppression of free speech and must
not burden substantially more speech than necessary
to further that interest or, in other words, must be
narrowly tailored to serve that interest without
unnecessarily interfering with first amendment
freedoms, which include allowing reasonable
alternative avenues of communication. See id. at 662,
114 S.Ct. 2445; Ward, 491 U.S. at 791, 109 S.Ct. 2746;
City of Renton, 475 U.S. at 50, 106 S.Ct. 925; Heffron,
452 U.S. at 647-48, 101 S.Ct. 2559; Minnis, 2016 IL
119563, ¶ 36, 409 Ill.Dec. 60, 67 N.E.3d 272; People ex
rel. Ryan v. World Church of the Creator, 198 Ill. 2d
115, 121, 260 Ill.Dec. 180, 760 N.E.2d 953 (2001).
¶ 60 Accordingly, in the context of the first
amendment, fit matters. Even when the Supreme
Court is not applying strict scrutiny, the court still
requires a fit that is not necessarily perfect but
reasonable, a fit that represents not necessarily the
single best disposition but one whose scope is in
proportion to the interest served, a fit that employs not
27a

necessarily the least restrictive means but a means
narrowly tailored to achieve the desired objective.
McCutcheon v. Federal Election Comm’n, 572 U.S.
185, ––––, 134 S. Ct. 1434, 1456-57, 188 L.Ed.2d 468
(2014).
¶ 61 In the case at bar, we conclude that section 1123.5 serves a substantial government interest. “It is a
traditional exercise of the States’ police powers to
protect the health and safety of their citizens.”
(Internal quotation marks omitted.) Hill v. Colorado,
530 U.S. 703, 715, 120 S.Ct. 2480, 147 L.Ed.2d 597
(2000). This court has long recognized “[i]t is clear that
in the exercise of the police power, government may
act to regulate, restrain or prohibit that which is
harmful to the public welfare even though the
regulation, restraint or prohibition might interfere
with the liberty or property of an individual.” Chicago
National League Ball Club, Inc. v. Thompson, 108 Ill.
2d 357, 368, 91 Ill.Dec. 610, 483 N.E.2d 1245 (1985);
People v. Warren, 11 Ill. 2d 420, 424-25, 143 N.E.2d 28
(1957) (collecting cases).
¶ 62 It is well established that government can protect
individual privacy rights. In their influential 1890 law
review article, future Supreme Court Justice Louis
Brandeis and his coauthor argued for recognition of a
distinct right to privacy. Samuel D. Warren & Louis D.
Brandeis, The Right to Privacy, 4 Harv. L. Rev. 193
(1890). Reviewing various developments in the
common law, the article described one of the problems
it sought to address:
“Recent inventions and business methods
28a

call attention to the next step which must
be taken for the protection of the person,
and for securing to the, individual what
Judge Cooley calls the right ‘to be let
alone.’ Instantaneous photographs and
newspaper enterprise have invaded the
sacred precincts of private and domestic
life; and numerous mechanical devices
threaten to make good the prediction
that what is whispered in the closet shall
be proclaimed from the house-tops. For
years there has been a feeling that the
law must afford some remedy for the
unauthorized circulation of portraits of
private persons * * *.” (Internal quotation
marks omitted.) Id. at 195.
*11 Reviewing case law, the article explained that
then-existing causes of action, such as breach of trust
and property-based claims, had long been used to
protect privacy interests. However, those actions had
become inadequate to protect individual privacy in a
changing world. Id. at 211. The article explained that
the right to privacy does not prohibit publication of
matters of public interest. As an example, the article
argued that publishing that a private individual has a
speech impediment or cannot spell may be proscribed,
but publishing the same characteristics of a
congressional candidate could not. Id. at 214-15.
¶ 63 Today, “the existence of a right of privacy is now
recognized in the great majority of the American
jurisdictions that have considered the question.”
Restatement (Second) of Torts § 652A cmt. a, at 377
29a

(1977). “As it has developed in the courts, the invasion
of the right of privacy has been a complex of four
distinct wrongs, whose only relation to one another is
that each involves interference with the interest of the
individual in leading, to some reasonable extent, a
secluded and private life * * *.” Id. cmt. b, at 377.
Relevant here is the tort of public disclosure of private
facts. Id. § 652D. To state a cause of action, the
plaintiff must prove that (1) the defendant gave
publicity (2) to the plaintiff’s private and not public life
(3) and that the matter made public was highly
offensive and (4) not of legitimate public concern. Doe
v. TCF Bank Illinois, FSB, 302 Ill. App. 3d 839, 841,
236 Ill.Dec. 375, 707 N.E.2d 220 (1999); see
Restatement (Second) of Torts § 652D cmt. d (1977);
Prosser and Keeton on the Law of Torts § 117, at 85657 (W. Page Keeton et al. eds., 5th ed. 1984). With
their longstanding historical pedigree, invasion of
privacy torts broadly developed across the country,
without any established first amendment limitations,
to protect the privacy of nonpublic figures with respect
to matters of only private interest. See VanBuren,
2018 VT 95, ¶ 43, 214 A.3d 791. Thus, section 11-23.5
is distinguishable from the law prohibiting depictions
of animal cruelty that the Supreme Court struck down
in Stevens, 559 U.S. at 469, 130 S.Ct. 1577 (stating
that the Court was “unaware of any similar tradition
excluding depictions of animal cruelty from ‘the
freedom of speech’ codified in the First Amendment”
(emphasis omitted)).
¶ 64 Indeed, we observe that the United States
Supreme Court has never declared unconstitutional a
restriction of speech on purely private matters that
30a

protected an individual who is not a public figure for
an invasion of privacy. Rather, the Supreme Court has
repeatedly reconciled the tension between the right to
privacy and free speech by analyzing the specific
privacy claim and the public interest in the
communication in each case. See, e.g., Time, Inc. v.
Hill, 385 U.S. 374, 383 n.7, 87 S.Ct. 534, 17 L.Ed.2d
456 (1967) (declining to announce categorical rule on
whether truthful publication of revelations so intimate
as to shock community’s notions of decency could be
constitutionally proscribed); Cox Broadcasting Corp. v.
Cohn, 420 U.S. 469, 491, 95 S.Ct. 1029, 43 L.Ed.2d 328
(1975) (same); Florida Star v. B.J.F., 491 U.S. 524,
532-33, 109 S.Ct. 2603, 105 L.Ed.2d 443 (1989) (same);
Bartnicki, 532 U.S. at 529, 121 S.Ct. 1753 (same).
¶ 65 These Supreme Court decisions reflect three
consistent themes. First, speech on matters of private
concern that invades the privacy interests of nonpublic
figures does not enjoy the same degree of first
amendment protection as speech on matters of public
concern or relating to public figures. Second, state laws
protecting individual privacy rights are long
established and are not necessarily subordinate to first
amendment free speech protections. Third, the Court
is wary of broad rules or categorical holdings framing
the relationship between laws protecting individual
privacy and the first amendment. See VanBuren, 2018
VT 95, ¶ 38, 214 A.3d 791.
*12 ¶ 66 Specifically, the nonconsensual dissemination
of private sexual images causes unique and significant
harm to victims in several respects. Initially, this
crime can engender domestic violence. Perpetrators
31a

threaten disclosure to prevent victims from ending
relationships, reporting abuse, or obtaining custody of
children. Sex traffickers and pimps threaten disclosure
to trap unwilling individuals in the sex trade. Rapists
record their sexual assaults to humiliate victims and
deter them from reporting the attacks. Schein, supra,
at 1963; Franks, supra, at 1258; see Citron & Franks,
supra, at 351.
¶ 67 Also, the victims’ private sexual images are
disseminated with or in the context of identifying
information. Victims are frequently harassed, solicited
for sex, and even threatened with sexual assault
(Schein, supra, at 1963-64; Franks, supra, at 1259;
Citron & Franks, supra, at 353) and are fired from
their jobs and lose future employment opportunities
(Franks, supra, at 1259; Bustamante, supra, at 365-66;
Citron & Franks, supra, at 352-53). Victims
additionally suffer profound psychological harm.
Victims often experience feelings of low self-esteem or
worthlessness, anger, paranoia, depression, isolation,
and thoughts of suicide. Schein, supra, at 1964;
Bustamante, supra, at 366-67; see Citron & Franks,
supra, at 350-51; Souza, supra, at 103 (“Beyond the
obvious embarrassment suffered, victims are often
threatened with bodily harm, fired from their jobs, or
forced to change their names. Some have been driven
to suicide.”).
¶ 68 Additionally, the nonconsensual dissemination of
sexual images disproportionately affects women, who
constitute 90% of the victims, while men are most
commonly the perpetrators and consumers. Schein,
supra, at 1961; Franks, supra, at 1259 (acknowledging
32a

that the crime affects both men and women, but
stating that “available evidence to date indicates that
the majority of victims are women and girls”).
¶ 69 In a brief time span, 43 states and the District of
Columbia have enacted laws prohibiting the
nonconsensual dissemination of private sexual images.
These widespread efforts demonstrate that
government recognizes the plight of victims of this
crime and their need for protection. See Nisttáhuz,
supra, at 357. “No one can challenge a state’s interest
in protecting the privacy of personal images of one’s
body that are intended to be private—and specifically,
protecting individuals from the nonconsensual
publication on websites accessible by the public.” State
v. Culver, 2018 WI App 55, ¶ 19, 384 Wis. 2d 222, 918
N.W.2d 103. Indeed, courts have concluded that the
government interest in this regard is “compelling.”
VanBuren, 2018 VT 95, ¶ 59, 214 A.3d 791; People v.
Iniguez, 247 Cal.App.4th Supp. 1, 202 Cal. Rptr. 3d
237, 243 (App. Dep’t Super. Ct. 2016). We have no
difficulty in concluding that section 11-23.5 serves a
substantial government interest unrelated to the
suppression of speech.
¶ 70 We next consider whether section 11-23.5 is
narrowly tailored to serve this substantial government
interest without unnecessarily interfering with first
amendment freedoms. In contending that the statute
fails strict scrutiny, defendant argues that a penal
statute is not the least restrictive means to accomplish
the alleged compelling government interest. We earlier
concluded that this contention is misplaced. Unlike
strict scrutiny, which requires the least restrictive
33a

means to accomplish a compelling government
interest, the “narrowly tailored” requirement of
intermediate scrutiny does not require that the
regulation be the least speech-restrictive means of
advancing the government interest. Rather, the
“narrowly tailored” requirement of intermediate
scrutiny is satisfied so long as the law promotes a
substantial government interest that would be
achieved less effectively absent the law. Turner
Broadcasting System, 512 U.S. at 662, 114 S.Ct. 2445;
Ward, 491 U.S. at 798-99, 109 S.Ct. 2746; Minnis,
2016 IL 119563, ¶ 42, 409 Ill.Dec. 60, 67 N.E.3d 272.
Stated otherwise, the law must reasonably fit the
substantial government interest. McCutcheon, 572
U.S. at ––––, 134 S. Ct. at 1456-57.
*13 ¶ 71 We conclude that the substantial government
interest of protecting Illinois residents from
nonconsensual dissemination of private sexual images
would be achieved less effectively absent section 1123.5. “As we have noted in the past, ‘the legislature
has broad discretion to determine not only what the
public interest and welfare require, but to determine
the means needed to serve such interest.’ ” People v.
McCarty, 223 Ill. 2d 109, 140, 306 Ill.Dec. 570, 858
N.E.2d 15 (2006) (quoting Chicago National League
Ball Club, 108 Ill. 2d at 364, 91 Ill.Dec. 610, 483
N.E.2d 1245). It is quite established that “the
legislature, under the State’s police power, has wide
discretion to classify offenses and prescribe penalties
for the defined offenses.” People v. La Pointe, 88 Ill. 2d
482, 500, 59 Ill.Dec. 59, 431 N.E.2d 344 (1981); see
People v. Simmons, 145 Ill. 2d 264, 269-70, 164 Ill.Dec.
568, 583 N.E.2d 484 (1991) (collecting cases).
34a

¶ 72 Defendant’s contention overlooks the
fundamental difference between civil and criminal law.
“The civil action for a tort * * * is commenced and
maintained by the injured person, and its primary
purpose is to compensate for the damage suffered at
the expense of the wrongdoer.” Prosser and Keeton on
the Law of Torts § 2, at 7 (W. Page Keeton et al. eds.,
5th ed. 1984). The distinction between a tort and a
crime “lies in the interests affected and the remedy
afforded by the law.” Id. “The criminal law is
concerned with the protection of interests common to
the public at large, as they are represented by the
entity which we call the state; often it accomplishes its
ends by exacting a penalty from the wrongdoer.” Id. §
1, at 5.
¶ 73 Civil actions are inadequate. “[M]any civil
remedies are not only insufficient or unrealistic, but
also counterintuitive in terms of their supposed
redress or the harm victims suffer.” Bustamante,
supra, at 368. Scholars have explained as follows:
“Civil suits based on privacy violations
are problematic. Most victims want the
offensive material removed and civil suits
almost never succeed in removing the
images due to the sheer magnitude of
dissemination. Highly publicized trials
often end in re-victimization. Civil
litigation is expensive and timeconsuming, and many victims simply
cannot afford it. It is difficult to identify
and prove who the perpetrator is for legal
proceedings because it is so easy to
35a

anonymously post and distribute revenge
porn. Even when victims can prove who
the perpetrator is in court and win
money damages, many defendants are
judgment-proof so victims cannot collect.
***
Further, a court order requiring a
defendant or website to remove the
images would fail to remove the images
from the web entirely, particularly as
they appear on numerous sites. Because
most perpetrators are judgment-proof,
and injunctive relief may be difficult to
obtain and would ultimately fail to
remove the images, civil suits are poor
remedies. As perpetrators frequently
have nothing to lose, which is why they
engage in this behavior in the first place,
civil suits do not deter revenge porn.”
(Internal quotation marks omitted.)
Kitchen, supra, at 251-53.
Accord Souza, supra, at 111-15; Citron & Franks,
supra, at 357-59.
¶ 74 Additionally, copyright law might appear to be a
viable option for victims to remove nonconsensual
private sexual images from the Internet. If the victim
created such an image herself, then she is considered
the copyright owner and would be entitled to
protection under federal copyright law. Such copyright
infringement protection could result in the removal of
36a

such images from a website. Souza, supra, at 115.
¶ 75 However, registering the copyright
“requires the victim to be exposed all
over again—this time to the government.
So, ironically, to copyright an image and
stop strangers from seeing their nude
pictures, victims have to send more
pictures of their naked body to more
strangers (the individuals at the U.S.
Copyright Office). Though a successful
registration can effectuate a takedown
from the identified website, the
registered images are sent to the
copyright office and appear in the
Library of Congress’ public catalog
alongside copyright owners’ names and
image descriptions. Though copyright law
can provide help to victims who own the
copyright of their images and are willing
to register them, this avenue is not
available to victims whose posted
photographs or videos were created by
others.” (Internal quotation marks
omitted.) Id. at 115-16.
*14 Accord Kitchen, supra, at 258-61; Citron &
Franks, supra, at 359-60.
¶ 76 Criminalization is a vital deterrent. “As neither
privacy torts nor copyright law successfully removes
revenge porn images or deters it in the first instance,
a more effective deterrent is necessary.” Kitchen,
37a

supra, at 261; see also Bustamante, supra, at 377-78
(same); Schein, supra, at 1972 (“It is not merely the
insufficiency of other legal and adjudicatory means
that merits its criminalization, but also the overtly
non-consensual, sexual nature of revenge porn’s
core.”). Section 11-23.5(b) constitutes a reasonable fit
whose scope is in proportion to the substantial
government interest served. See McCutcheon, 572 U.S.
at ––––, 134 S. Ct. at 1456-57. The General Assembly
reasonably determined, in the exercise of the police
power, that a criminal law was necessary to combat
the evils of nonconsensual dissemination of private
sexual images. See Ward, 491 U.S. at 801, 109 S.Ct.
2746.
¶ 77 We next consider whether section 11-23.5 burdens
substantially more speech than necessary. Subsections
(a) through (d) are relevant to our analysis. 720 ILCS
5/11-23.5(a)-(d) (West 2016).
¶ 78 Subsection (a) provides as follows:
“(a) Definitions. For the purposes of this
Section:
‘Computer’, ‘computer program’, and
‘data’ have the meanings ascribed to
them in Section 17-0.5 of this Code.
‘Image’ includes a photograph, film,
videotape, digital recording, or other
depiction or portrayal of an object,
including a human body.
38a

‘Intimate parts’ means the fully
unclothed, partially unclothed or
transparently clothed genitals, pubic
area, anus, or if the person is female, a
partially or fully exposed nipple,
including exposure through transparent
clothing.
‘Sexual act’ means sexual penetration,
masturbation, or sexual activity.
‘Sexual activity’ means any:
(1) knowing touching or fondling
by the victim or another person or
animal, either directly or through
clothing, of the sex organs, anus, or
breast of the victim or another person or
animal for the purpose of sexual
gratification or arousal; or
(2) any transfer or transmission of
semen upon any part of the clothed or
unclothed body of the victim, for the
purpose of sexual gratification or arousal
of the victim or another; or
(3) an act of urination within a
sexual context; or
(4) any bondage, fetter, or sadism
masochism; or
(5) sadomasochism abuse in any
39a

sexual context.” Id. § 11-23.5(a).
Subsection (a) defines nonconsensual dissemination of
private sexual images narrowly, including limiting the
crime to a confined class of content.
¶ 79 Subsection (b), quoted earlier, states the elements
of the offense. Subsection (b) is narrowly tailored in
several respects so as not to burden more speech than
necessary. First, the images must be “private sexual
images” that portray any of several specific features,
including the depiction of a person whose intimate
parts are exposed or visible, in whole or in part, or who
is engaged in a sexual act as defined in the statute. Id.
§ 11-23.5(a), (b)(1)(C). Therefore, the scope of the
statute is restricted to images that can fairly be
characterized as being of a discreet and personal
nature. See Culver, 2018 WI App 55, ¶ 12, 384 Wis.2d
222, 918 N.W.2d 103 (observing that the “private
representation” element in Wisconsin’s nonconsensual
dissemination statute, which is similar to the
definition of “private sexual images” in section 1123.5(b), narrows the statute’s application). As a
consequence, the statute does not apply to
circumstances in which the subject images are not of
a private sexual nature.
*15 ¶ 80 Second, the person portrayed in the image
must be over the age of 18 and identifiable from the
image or information displayed in connection with the
image. 720 ILCS 5/11-23.5(b)(1)(A)-(B) (West 2016).
The statute is inapplicable if the image does not
contain sufficient information to identify the person
depicted. Therefore, section 11-23.5(b) burdens only
40a

speech that targets a specific person.
¶ 81 Third, the image must have been obtained under
circumstances in which a reasonable person would
know or understand that it was to remain private. Id.
§ 11-23.5(b)(2). We construe this provision as requiring
a reasonable awareness that privacy is intended by the
person depicted. This requirement limits the statute’s
application to the types of personal, direct interactions
or communications that are typically involved in a
close or intimate relationship. See Minnis, 2016 IL
119563, ¶ 21, 409 Ill.Dec. 60, 67 N.E.3d 272
(recognizing that, where possible, a court must
construe a statute so as to uphold its constitutionality).
Thus, this provision ensures that the statute is
inapplicable if the image was obtained under
circumstances where disclosure to another is a natural
and expected outcome.
¶ 82 Fourth, the person who disseminates such an
image must have known or should have known that
the person portrayed in the image has not consented to
the dissemination. 720 ILCS 5/11-23.5(b)(3) (West
2016). The lack of consent to dissemination forms the
core of the statute and its protective purpose. As with
the expectation of privacy discussed above, we
construe this provision to incorporate a reasonable
awareness of the lack of consent to dissemination.
Where the person portrayed in the image has
consented to its disclosure, the statute simply does not
apply and poses no restriction on the distribution of
the image to others.
¶ 83 Fifth, the statute specifically requires that the
41a

dissemination of private sexual images be intentional.
Id. § 11-23.5(b)(1). Therefore, the probability that a
person will inadvertently violate section 11-23.5(b)
while engaging in otherwise protected speech is
minimal.
¶ 84 Section 11-23.5 also includes several specific
exemptions. Subsection (c) provides as follows:
“(c) The following activities are exempt
from the provisions of this Section:
(1) The intentional dissemination
of an image of another identifiable person
who is engaged in a sexual act or whose
intimate parts are exposed when the
dissemination is for the purpose of a
criminal investigation that is otherwise
lawful.
(2) The intentional dissemination
of an image of another identifiable person
who is engaged in a sexual act or whose
intimate parts are exposed when the
dissemination is made for the purpose of,
or in connection with, the reporting of
unlawful conduct.
(3) The intentional dissemination
of an image of another identifiable person
who is engaged in a sexual act or whose
intimate parts are exposed when the
images involve voluntary exposure in
public or commercial settings.
42a

(4) The intentional dissemination
of an image of another identifiable person
who is engaged in a sexual act or whose
intimate parts are exposed when the
dissemination serves a lawful public
purpose.” Id. § 11-23.5(c).
These exemptions shield from criminal liability any
dissemination of a private sexual image that advances
the collective goals of ensuring a well-ordered system
of justice and protecting society as a whole. In
addition, subsection (c)(3) recognizes that public
disclosure has been sanctioned based on the very
nature of such an image. Finally, the statute does not
apply to electronic communication companies that
provide access to the Internet, public mobile services,
or private radio services. Id. § 11-23.5(d).
*16 ¶ 85 Based on the statutory terms set forth above,
section 11-23.5 is narrowly tailored to further the
important governmental interest identified by the
legislature. Accordingly, we conclude the statute does
not burden substantially more speech than necessary.
¶ 86 Also, we observe that reasonable avenues of
communication remain. As the United States Supreme
Court has “emphasized on more than one occasion,
when a content-neutral regulation does not entirely
foreclose any means of communication, it may satisfy
the tailoring requirement even though it is not the
least restrictive or least instrusive means of serving
the statutory goal.” Hill, 530 U.S. at 726, 120 S.Ct.
2480. Under section 11-23.5, “[p]eople remain free to
43a

produce, distribute, and consume a vast array of
consensually disclosed sexually explicit images.
Moreover, they remain free to criticize or complain
about fellow citizens in ways that do not violate the
privacy rights of others.” Franks, supra, at 1326.
Section 11-23.5, with its narrow tailoring,
“does not come close to shutting down the
vast number of ways in which people may
vent their anger and aggression. The
Internet has provided innumerable
opportunities for aggressive and offensive
interactions, and the First Amendment
largely protects those opportunities. The
First Amendment does not, however,
protect the unauthorized distribution of
personal, private, and intimate images
unrelated to any public interest.” Id. at
1326-27.
In this case, defendant makes no argument that her
speech would have been in any way stifled by not
attaching the victim’s private sexual images to her
letter. We hold that section 11-23.5 satisfies
intermediate scrutiny.
¶ 87 E. First Amendment Overbreadth
¶ 88 We have concluded that section 11-23.5 does not
improperly restrict defendant’s freedom of speech as
guaranteed by the first amendment. However, in
support of the circuit court’s order, defendant
alternatively contends that section 11-23.5(b) is
facially unconstitutional because it is overbroad. We do
44a

not agree.
¶ 89 The first amendment overbreadth doctrine looks
not at whether a law improperly regulates speech
based on viewpoint or content but at the appropriate
scope of the regulation. See Osborne v. Ohio, 495 U.S.
103, 112, 110 S.Ct. 1691, 109 L.Ed.2d 98 (1990)
(recognizing that, where a statute regulates expressive
conduct, it may be found to be unconstitutionally
overbroad if it “criminalizes an intolerable range of
constitutionally protected conduct”). Generally, a
defendant seeking to assert a facial challenge would be
required to establish that there is no set of
circumstances under which the statute would be valid.
Minnis, 2016 IL 119563, ¶ 24, 409 Ill.Dec. 60, 67
N.E.3d 272. However, the overbreadth doctrine
permits a party to challenge a statute as a facial
violation of the first amendment, even if that party’s
conduct would not fall within the amendment’s
protection. Broadrick v. Oklahoma, 413 U.S. 601, 612,
93 S.Ct. 2908, 37 L.Ed.2d 830 (1973); see also People
v. Relerford, 2017 IL 121094, ¶ 50, 422 Ill.Dec. 774,
104 N.E.3d 341; Minnis, 2016 IL 119563, ¶¶ 14, 24,
409 Ill.Dec. 60, 67 N.E.3d 272. A facial challenge based
on first amendment overbreadth is permitted out of
concern that the threat of enforcement of an overbroad
law may chill or deter constitutionally protected
speech, particularly where the statute imposes
criminal penalties. Virginia v. Hicks, 539 U.S. 113,
119, 123 S.Ct. 2191, 156 L.Ed.2d 148 (2003); see also
Minnis, 2016 IL 119563, ¶ 24, 409 Ill.Dec. 60, 67
N.E.3d 272; People v. Melongo, 2014 IL 114852, ¶ 24,
379 Ill.Dec. 43, 6 N.E.3d 120.
45a

*17 ¶ 90 Under the first amendment’s overbreadth
doctrine, “a statute is facially invalid if it prohibits a
substantial amount of protected speech.” United States
v. Williams, 553 U.S. 285, 292, 128 S.Ct. 1830, 170
L.Ed.2d 650 (2008); see also Relerford, 2017 IL 121094,
¶ 50, 422 Ill.Dec. 774, 104 N.E.3d 341 (citing Grayned
v. City of Rockford, 408 U.S. 104, 114, 92 S.Ct. 2294,
33 L.Ed.2d 222 (1972)). The doctrine operates to
balance two competing social costs—the chilling effect
on constitutionally protected speech against the
invalidation of a law that is entirely constitutional in
some of its applications. Williams, 553 U.S. at 292, 128
S.Ct. 1830 (citing Hicks, 539 U.S. at 119-20, 123 S.Ct.
2191). In order to be unconstitutional, the overbreadth
must be “substantial, not only in an absolute sense,
but also relative to the statute’s plainly legitimate
sweep.” (Emphasis omitted.) Id. at 292-93, 128 S.Ct.
1830 (citing" Board of Trustees of the State University
of New York v. Fox, 492 U.S. 469, 485, 109 S.Ct. 3028,
106 L.Ed.2d 388 (1989), and Broadrick, 413 U.S. at
615, 93 S.Ct. 2908); see also Stevens, 559 U.S. at 473,
130 S.Ct. 1577. “The ‘mere fact that one can conceive
of some impermissible applications of a statute is not
sufficient to render it susceptible to an overbreadth
challenge.’ ” Williams, 553 U.S. at 303, 128 S.Ct. 1830
(quoting Members of City Council of the City of Los
Angeles v. Taxpayers for Vincent, 466 U.S. 789, 800,
104 S.Ct. 2118, 80 L.Ed.2d 772 (1984)). Under
intermediate scrutiny, a content-neutral statute is
overbroad only when it burdens substantially more
speech than necessary to advance its substantial
governmental interest. Turner Broadcasting System,
512 U.S. at 662, 114 S.Ct. 2445; Minnis, 2016 IL
119563, ¶ 44, 409 Ill.Dec. 60, 67 N.E.3d 272.
46a

¶ 91 Because the invalidation of a statute on
overbreadth grounds is “strong medicine,” it is to be
applied “only as a last resort” and where the statute is
not subject to a limiting construction. Broadrick, 413
U.S. at 613, 93 S.Ct. 2908; see also Relerford, 2017 IL
121094, ¶ 51, 422 Ill.Dec. 774, 104 N.E.3d 341. If a
statute is “ ‘readily susceptible’ ” to a narrowing
construction that will eliminate its substantial
overbreadth, the statute must be upheld. Virginia v.
American Booksellers Ass’n, 484 U.S. 383, 397, 108
S.Ct. 636, 98 L.Ed.2d 782 (1988) (citing Erznoznik v.
City of Jacksonville, 422 U.S. 205, 216, 95 S.Ct. 2268,
45 L.Ed.2d 125 (1975)); see also Hicks, 539 U.S. at
118-19, 123 S.Ct. 2191.
¶ 92 To resolve defendant’s overbreadth argument, we
must determine whether section 11-23.5(b)
impermissibly restricts constitutionally protected
expression in a substantial number of its applications
when considered in relation to its “plainly legitimate
sweep.” See Stevens, 559 U.S. at 473, 130 S.Ct. 1577;
Williams, 553 U.S. at 292-93, 128 S.Ct. 1830. As
explained above, the statute includes several elements
that operate to significantly limit its application.
¶ 93 In light of these detailed restrictions that serve to
confine the sphere of proscribed conduct, we conclude
that section 11-23.5(b) is not overbroad. The statute
prohibits a certain and limited category of knowing
conduct that involves the unauthorized and intentional
dissemination of an intensely personal image of
another person. It encompasses only an image of a
private and sexual nature, which the disseminator
must know or understand is to remain private and
47a

which is disclosed without the consent of the person
depicted in the image. Given the narrowly focused
scope of section 11-23.5(b), we conclude that the
statute does not prohibit a substantial amount of
protected speech when judged in relation to the
statute’s legitimate sweep. See Stevens, 559 U.S. at
473, 130 S.Ct. 1577; Williams, 553 U.S. at 292-93, 128
S.Ct. 1830. As such, it does not burden substantially
more speech than necessary to advance its substantial
governmental interest. Turner Broadcasting System,
512 U.S. at 662, 114 S.Ct. 2445; Minnis, 2016 IL
119563, ¶ 44, 409 Ill.Dec. 60, 67 N.E.3d 272.
¶ 94 Despite the fact that the statute includes the
several narrowing factors previously discussed,
defendant argues that the circuit court correctly
determined that section 11-23.5(b) is
unconstitutionally overbroad. As support of its
overbreadth determination, the circuit court posited
several hypothetical scenarios as examples of
circumstances in which the statute would
impermissibly restrict protected speech.
¶ 95 First, the circuit court stated that, because the
statutory definition of “sexual activity” includes acts of
“any bondage” or “fetter,” section 11-23.5(b) would
criminalize the publication of news photographs of
arrestees and prisoners, historic photographs of slaves,
and publicity posters of escape artists. The circuit
court’s conclusion is clearly wrong. It is firmly
established that a court must view the statute as a
whole, construing words and phrases in light of other
relevant statutory provisions and not in isolation.
People v. Casas, 2017 IL 120797, ¶ 18, 422 Ill.Dec. 858,
48a

104 N.E.3d 425. Each word, clause, and sentence of a
statute must be given a reasonable meaning, if
possible, and should not be rendered superfluous. Id.
The court may consider the reason for the law, the
problems sought to be remedied, the purposes to be
achieved, and the consequences of construing the
statute one way or another. Id. Section 11-23.5(b)
pertains only to the unauthorized dissemination of
“private sexual images” and is intended to protect the
privacy of victims from the unauthorized disclosure of
discreet and personal portrayals. Although section 1123.5(b) does not include a definition of “bondage,”
Black’s Law Dictionary defines that term to mean
“[t]he state or condition of being a slave; * * * the
condition or state of having one’s freedom limited[;] *
* * [t]he state or practice of being tied up for sexual
pleasure.” Black’s Law Dictionary 216 (10th ed. 2014).
Only that portion of the definition relating to “sexual
pleasure” has any relevance in the context of section
11-23.5(b). Images depicting arrestees, prisoners,
slaves, or escape artists are not sexual in nature and,
therefore, do not fall within the purview of section 1123.5(b).
*18 ¶ 96 We similarly reject the circuit court’s
suggestion that section 11-23.5(b) would impose
criminal liability on a person who discovers and shares
with other family members nude sketches of his or her
grandmother that were created by his or her
grandfather but were discovered in an attic after her
death. As noted above, we may consider the reason for
the law, the problems sought to be remedied, the
purposes to be achieved, and the consequences of
construing the statute one way or another. Casas, 2017
49a

IL 120797, ¶ 18, 422 Ill.Dec. 858, 104 N.E.3d 425.
Obviously, the statute is intended to protect living
victims from the invasion of privacy and the potential
threat to health and safety that is intrinsic in the
disclosure of a private sexual image. However, “the
deceased by definition cannot personally suffer the
privacy-related injuries that may plague the living.”
Campbell v. United States Department of Justice, 164
F.3d 20, 33 (D.C. Cir. 1998); see also National Archives
& Records Administration v. Favish, 541 U.S. 157,
168-69, 124 S.Ct. 1570, 158 L.Ed.2d 319 (2004)
(collecting authorities holding that it is the privacy
interest of living family members—not the dead—that
protects against public disclosure of photographs and
autopsy reports of deceased persons). In light of the
fact that a deceased person cannot suffer the types of
injuries that section 11-23.5(b) is intended to
safeguard against, the statute does not apply to the
hypothetical situation suggested by the circuit court.
¶ 97 The circuit court also questioned whether section
11-23.5(b) would criminalize the sharing of nude
sketches of a person’s grandmother if his or her
grandfather had been an artist such as Andrew Wyeth,
who created the “Helga Pictures” that remained secret
for many years, or Pablo Picasso. Again, we must
consider the reason for the law, the problems sought to
be remedied, the purposes to be achieved, and the
consequences of construing the statute one way or
another. Casas, 2017 IL 120797, ¶ 18, 422 Ill.Dec. 858,
104 N.E.3d 425. Given that a model who poses for an
artist is aware of that person’s profession, it will
generally be understood that the sketch or painting
may be displayed to others at some point in time. In
50a

such a circumstance, the statute would not apply
because a reasonable person would not know or
understand that the image was to remain private. The
same is true of the circuit court’s reference to images
published in Playboy Magazine and in movies or
programs depicting nudity. The people portrayed in
such images have clearly consented to public
disclosure and dissemination. Indeed, that is the whole
point of appearing in such a photograph or film.
¶ 98 And, even if the publication of Wyeth’s secret
Helga collection would fall within the statute’s
purview, such a situation is rare and should be
addressed on a case-by-case basis. See New York v.
Ferber, 458 U.S. 747, 773-74, 102 S.Ct. 3348, 73
L.Ed.2d 1113 (1982) (holding that impermissible
applications of a statute that do not amount to more
than a small fraction of the materials within the
statute’s reach should be cured through case-by-case
analysis); see also Broadrick, 413 U.S. at 615-16, 93
S.Ct. 2908; People v. Anderson, 148 Ill. 2d 15, 26-27,
169 Ill.Dec. 288, 591 N.E.2d 461 (1992). A statute will
not be held to be overbroad simply because some
impermissible applications are conceivable. Ferber,
458 U.S. at 772, 102 S.Ct. 3348.
¶ 99 The animating purpose of section 11-23.5(b) is to
protect living persons from being victimized by
harassment, discrimination, embarrassment, and
possible violence resulting from the privacy violation
occasioned by the nonconsensual dissemination of
private sexual images. The hypothetical examples
cited by the circuit court do not establish that section
11-23.5(b) is unconstitutional in a substantial number
51a

of its applications when judged against its plainly
legitimate sweep. See Stevens, 559 U.S. at 473, 130
S.Ct. 1577; Williams, 553 U.S. at 292-93, 128 S.Ct.
1830.
¶ 100 In concluding that the statute is overbroad, the
circuit court also referenced the fact that section 1123.5(b) does not require that the nonconsensual
dissemination of private sexual images be done with
“malicious intent.” This feature does not render the
statute overbroad.
¶ 101 Initially, we observe that section 11-23.5(b)
specifically requires that the dissemination of a
private sexual image be intentional, that the person
who disseminates the image knows or should have
known that the person portrayed has not consented to
the dissemination and that the image was obtained
under circumstances in which a reasonable person
would know or understand that the image was to
remain private. See 720 ILCS 5/11-23.5(b)(1)-(3) (West
2016). Thus, the circuit court’s reference to the lack of
a “malicious intent” does not, and cannot, pertain to
the lack of a mental state as set forth in sections 4-4
through 4-7 of the Criminal Code. See id. §§ 4-4 to 4-7.
¶ 102 Instead, the circuit court’s criticism refers to the
fact that the statute does not require proof of an illicit
motive or malicious purpose. The circuit court did not,
however, cite legal authority for the proposition that a
criminal statute necessarily must contain an illicit
motive or malicious purpose to survive an overbreadth
challenge. In addition, we observe that the motive
underlying an intentional and unauthorized
52a

dissemination of a private sexual image has no bearing
on the resulting harm suffered by the victim. A victim
whose image has been disseminated without consent
suffers the same privacy violation and negative
consequences of exposure, regardless of the
disseminator’s objective. Therefore, the question of the
disseminator’s motive or purpose is divorced from the
legislative goal of protecting the privacy of Illinois
citizens. The explicit inclusion of an illicit motive or
malicious purpose would not advance the substantial
governmental interest of protecting individual privacy
rights, nor would it significantly restrict its reach.
¶ 103 We recognize that most state laws prohibiting
the nonconsensual dissemination of private sexual
images expressly require some form of malicious
purpose or illicit motive as a distinct element of the
offense. Of course, the exact statutory language
establishing this element varies. Most of these states
provide elaborate descriptions of malice, such as “the
intent to harass, intimidate, threaten, humiliate,
embarrass, or coerce” (W. Va. Code § 61-8-28a(b)
(2019); see N.M. Stat. Ann. § 30-37A-1(A) (2019)) or
“the intent to annoy, terrify, threaten, intimidate,
harass, offend, humiliate or degrade” (Idaho Code § 186609(3)(a) (2019)) or “the intent to harass, intimidate,
or coerce” (see Colo. Rev. Stat. § 18-7-801(1)(a) (2019);
Mo. Rev. Stat. § 573.110(2); Okla. Stat. tit. 21, §
1040.13b(B)(2) (2019); Va. Code Ann. § 18.2-386.2(A)
(2019)).1 Other states describe simply the intent to

1

Such statutes include those of Alabama, Alaska,
Arizona, Arkansas, Iowa, Kansas, Kentucky, Maine, Maryland,

53a

“harm” (Ohio Rev. Code Ann. § 2917.211(B)(5) (West
2019); Tex. Penal Code Ann. § 21.16(b)(3) (West 2019))
or “harass” (Minn. Stat. § 617.261(2)(b)(5) (2018)).
¶ 104 In contrast, the legislatures of four states,
including our General Assembly, have chosen not to
expressly include “malice” as a distinct element of the
offense. 720 ILCS 5/11-23.5 (West 2016); see also Wis.
Stat. § 942.09 (2017-18); N.J. Stat. Ann. § 2C:14-9
(West 2019); Del. Code Ann. tit. 11, § 1335 (2017).2
¶ 105 We conclude that, although a malicious purpose
is not expressly mandated, the breadth of section 1123.5(b) is effectively limited by the five elements and
conditions that define the prohibited conduct. First, a
violation of section 11-23.5(b) requires proof of an
intentional dissemination of a “private sexual image[
].” 720 ILCS 5/11-23.5(b)(1)(C) (West 2016). Second,
Michigan, Nevada, New Hampshire, North Carolina,
Pennsylvania, Rhode Island, South Dakota, and Vermont. Ala.
Code § 13A-6-240(a) (2018); Alaska Stat. § 11.61.120(a) (2018);
Ariz. Rev. Stat. Ann. § 13-1425(A)(3) (2018); Ark. Code Ann. § 526-314(a) (2018); Iowa Code § 708.7 (2019); Kan. Stat. Ann. § 216101(a)(8) (2018); Ky. Rev. Stat. Ann. § 531.120(1)(a) (West 2019);
Me. Rev. Stat. Ann. tit. 17-A, § 511-A(1) (2019-20); Md. Code Ann.,
Crim. Law § 3-809(c)(1) (2018); Mich. Comp. Laws § 750.145e(1)
(2019); Nev. Rev. Stat. § 200.780(1) (2017); N.H. Rev. Stat. §
644:9-a(II)(a) (2018); N.C. Gen. Stat. § 14-190.5A(b) (2018); 18 Pa.
Cons. Stat. Ann. § 3131(a) (2018); 11 R.I. Gen. Laws § 11-643(a)(4) (2018); S.D. Codified Laws § 22-21-4 (2018); Vt. Stat. Ann.
tit. 13, § 2606(b)(1) (2018).
2

The Delaware statute requires a malicious purpose not
as an element of the offense but rather as an aggravating factor
in determining the penalty.

54a

that image must consist of a “private sexual image[ ],”
which depicts a person whose intimate parts are fully
or partially exposed or visible or who is engaged in a
sexual act. Id. § 11-23.5(a), (b)(1)(C). Third, the person
portrayed in the image must be at least 18 years old
and identifiable from the image or from information
displayed with the image. Id. § 11-23.5(b)(1)(A), (B).
Fourth, the image must have been obtained under
circumstances in which a reasonable person would
know or understand that it was to remain private. Id.
§ 11-23.5(b)(2). Fifth, the person who disseminates
such an image must have known or should have
known that the person portrayed in the image has not
consented to the dissemination. Id. § 11-23.5(b)(3).
*20 ¶ 106 Given this broad compendium of exacting
elements and conditions necessary to prove a violation
of section 11-23.5(b), we conclude that a wrongful
motive or purpose is inherent in the act of
disseminating an intensely personal image without the
consent of the person portrayed. See Culver, 2018 WI
App 55, ¶ 22, 384 Wis.2d 222, 918 N.W.2d 103. In our
view, section 11-23.5(b) implicitly includes an illicit
motive or malicious purpose, and the inclusion of an
explicit motive to cause harm would not appreciably
narrow its scope. See id.
¶ 107 In addition, as we have already explained, the
express requirement that the dissemination be
intentional severely limits the likelihood that a person
will violate the statute inadvertently or accidentally.
Such unusual situations do not demonstrate
substantial overbreadth and should be addressed on a
case-by-case basis. See New York State Club Ass’n v.
55a

City of New York, 487 U.S. 1, 14, 108 S.Ct. 2225, 101
L.Ed.2d 1 (1988); see also Ferber, 458 U.S. at 773-74,
102 S.Ct. 3348; Broadrick, 413 U.S. at 615-16, 93 S.Ct.
2908.
¶ 108 The circuit court further observed that section
11-23.5(b) does not expressly require a showing of any
specific harm to the victim. Again, the circuit court did
not cite any legal authority for the proposition that
inclusion of an element of harm is necessary to avoid
a finding of overbreadth. Moreover, we believe that the
unauthorized dissemination of a private sexual image,
which by definition must depict a person while nude,
seminude, or engaged in sexually explicit activity, is
presumptively harmful. Culver, 2018 WI App 55, ¶ 24,
384 Wis.2d 222, 918 N.W.2d 103.
¶ 109 In evaluating the competing social costs at
stake, we have held that Illinois has a substantial
governmental interest in protecting the privacy of
persons who have not consented to the dissemination
of their private sexual images. Although defendant
claims that section 11-23.5(b) will deter the free speech
of persons who have legally and unconditionally
obtained the private sexual images of others, her
assertion is unpersuasive given the limited application
of the statute and the fact that any possible
overbreadth is minor when considered in light of the
statute’s legitimate sweep. Defendant also contends
that section 11-23.5 “criminalizes an adult
complainant’s own stupidity at the expense of the
[f]irst [a]mendent.” Yet this argument entirely
disregards the victim’s first amendment right to
engage in a personal and private communication that
56a

includes a private sexual image. Defendant’s crude
attempt to “blame the victim” is not well received and
reinforces the need for criminalization. Accordingly,
defendant has not established that, on balance, the
social costs weigh in her favor or that the marginal
restraint on constitutionally protected speech is
greater than necessary to advance the governmental
interest at stake.
¶ 110 F. Constitutional Vagueness
¶ 111 Defendant also argues that section 11-23.5(b) is
unconstitutionally vague on its face in violation of her
right to due process (U.S. Const., amend. XIV; Ill.
Const. 1970, art. I, § 2). The argument that a statute
is void for vagueness is premised on the notice
requirement of the due process clause. Grayned, 408
U.S. at 108, 92 S.Ct. 2294; Wilson v. County of Cook,
2012 IL 112026, ¶ 21, 360 Ill.Dec. 148, 968 N.E.2d 641.
A statute may be challenged as vague on either of two
grounds: (1) it fails to give fair warning to allow
innocent people to steer clear of its prohibitions, or (2)
it contains insufficiently clear standards for those who
enforce it and may lead to arbitrary or discriminatory
enforcement. Hill, 530 U.S. at 732, 120 S.Ct. 2480;
Grayned, 408 U.S. at 108-09, 92 S.Ct. 2294; Wilson,
2012 IL 112026, ¶ 21, 360 Ill.Dec. 148, 968 N.E.2d 641.
In addition, where a statute involves first amendment
rights, it should not be so vague that it chills the
exercise of free expression by generating concern over
whether such conduct may violate the statute’s
prohibition. Grayned, 408 U.S. at 109, 92 S.Ct. 2294;
Wilson, 2012 IL 112026, ¶ 22, 360 Ill.Dec. 148, 968
N.E.2d 641. Therefore, “when a statute ‘interferes with
57a

the right of free speech or of association, a more
stringent vagueness test should apply.’ ” Holder v.
Humanitarian Law Project, 561 U.S. 1, 19, 130 S.Ct.
2705, 177 L.Ed.2d 355 (2010) (quoting Village of

Hoffman Estates v. The Flipside, Hoffman Estates,
Inc., 455 U.S. 489, 499, 102 S.Ct. 1186, 71 L.Ed.2d 362
(1982)); Wilson, 2012 IL 112026, ¶ 22, 360 Ill.Dec. 148,
968 N.E.2d 641. However, “ ‘perfect clarity and precise
guidance have never been required even of regulations
that restrict expressive activity.’ ” Williams, 553 U.S.
at 304, 128 S.Ct. 1830 (quoting Ward, 491 U.S. at 794,
109 S.Ct. 2746).

*21 ¶ 112 A vagueness claim based on due process is
analytically distinct from a first amendment
overbreadth claim and does not depend upon whether
a law applies to a substantial amount of protected
speech. Holder, 561 U.S. at 19-20, 130 S.Ct. 2705. A
facial challenge to a statute that is premised on due
process vagueness grounds can succeed “only if the
enactment is impermissibly vague in all of its
applications. A [litigant] who engages in some conduct
that is clearly proscribed cannot complain of the
vagueness of the law as applied to the conduct of
others.” Village of Hoffman Estates, 455 U.S. at 49495, 102 S.Ct. 1186. “That rule makes no exception for
conduct in the form of speech.” Holder, 561 U.S. at 20,
130 S.Ct. 2705 (citing Parker v. Levy, 417 U.S. 733,
755-57, 94 S.Ct. 2547, 41 L.Ed.2d 439 (1974)).
Therefore, the determination of whether a statute is
unconstitutionally vague must be decided based on the
particular facts before the court. Id. at 18-19, 130 S.Ct.
2705. Even where a more stringent standard of
vagueness applies, a litigant whose speech is clearly
58a

proscribed cannot successfully assert a due process
claim of vagueness for lack of notice. Id. at 20, 130
S.Ct. 2705. “And he certainly cannot do so based on the
speech of others.” Id. Accordingly, we address
defendant’s claim that section 11-23.5(b) is
unconstitutionally vague on its face in relation to her
conduct.
¶ 113 Defendant does not contend that section 1123.5(b) contains insufficiently clear standards for those
who enforce it and may lead to arbitrary or
discriminatory enforcement. We therefore address only
whether the statute provides fair warning sufficient to
avoid prosecution. Of critical importance to this
inquiry is whether the statute provides “people of
ordinary intelligence a reasonable opportunity to
understand what conduct it prohibits so that one may
act accordingly.” Wilson, 2012 IL 112026, ¶ 21, 360
Ill.Dec. 148, 968 N.E.2d 641 (citing Hill, 530 U.S. at
732, 120 S.Ct. 2480, and Grayned, 408 U.S. at 108-09,
92 S.Ct. 2294).
¶ 114 Initially, defendant contends that section 1123.5 is facially invalid as unconstitutionally vague
because the term “disseminate” is not defined in the
statute and does not expressly state to whom, when,
where, or how the dissemination must be
accomplished. This contention is without merit.
¶ 115 In the absence of a statutory definition, courts
presume that the words used in a statute have their
ordinary and popularly understood meanings.
Anderson, 148 Ill. 2d at 28, 169 Ill.Dec. 288, 591
N.E.2d 461. The term “disseminate” is defined as “to
59a

foster general knowledge of.” Webster’s Third New
International Dictionary 656 (1993). In addition, its
synonyms include “BROADCAST,” “PUBLICIZE,” and
“SPREAD.” Id. The same dictionary defines “spread”
as “to make more widely known.” Id. at 2208. In this
case, defendant sent a letter to at least one other
person that included the private sexual images of the
victim without her consent. That conduct
unquestionably “foster[ed] general knowledge of” the
victim’s image and made it “more widely known.”
Therefore, defendant’s conduct clearly fell within the
statutory proscription, and she cannot claim that it
was vague for lack of notice as to her circumstances.
See Holder, 561 U.S. at 20, 130 S.Ct. 2705; Anderson,
148 Ill. 2d at 28, 169 Ill.Dec. 288, 591 N.E.2d 461. The
fact that the statute may be vague as applied to the
speech of others is not relevant to the resolution of this
appeal. See Holder, 561 U.S. at 20, 130 S.Ct. 2705;
Village of Hoffman Estates, 455 U.S. at 495, 102 S.Ct.
1186; Anderson, 148 Ill. 2d at 28, 169 Ill.Dec. 288, 591
N.E.2d 461.
¶ 116 Defendant further objects that the statute carves
out an exception for dissemination that serves a
“lawful public purpose” but does not address what such
a purpose might be. See 720 ILCS 5/11-23.5(c)(4) (West
2016). Again, defendant cannot challenge the clarity of
statutory language that is inapplicable to her case. We
have held that the dissemination of a private sexual
image is a private matter, and defendant has
presented no argument that she acted in furtherance
of a “lawful public purpose.” Indeed, she has explained
that her dissemination of the image of the victim was
for a personal reason—to defend herself against
60a

Matthew’s statements that she was crazy and to
explain the reason underlying the breakup of their
relationship. Because her conduct was motivated by an
entirely personal concern, she is precluded from
asserting that the phrase “lawful public purpose” is
unconstitutionally vague. It is recognized that
“speculation about possible vagueness in hypothetical
situations not before the Court will not support a facial
attack.” Hill, 530 U.S. at 733, 120 S.Ct. 2480. As noted
above, a litigant cannot argue that statutory language
is void for vagueness based on the speech of others.
Holder, 561 U.S. at 20, 130 S.Ct. 2705.
*22 ¶ 117 Defendant also argues that the statute
violates due process because it imposes criminal
liability for the nonconsensual dissemination of a
private sexual image if a “reasonable person would
know or understand that the image was to remain
private.” 720 ILCS 5/11-23.5(b)(2) (2016). In
defendant’s view, the “reasonable person” negligence
standard is unconstitutionally vague because it
mandates that the defendant “read the minds of
others” regarding whether the image was intended to
remain private. We do not agree. This court has held
that a negligent mental state may be a valid basis for
imposing criminal liability and does not violate due
process. Relerford, 2017 IL 121094, ¶ 22, 422 Ill.Dec.
774, 104 N.E.3d 341.
¶ 118 We are similarly unpersuaded by defendant’s
assertion that section 11-23.5 violates due process
because a private sexual image that has been shared
with another person is not a truly private matter.
According to defendant, the “unconditional” disclosure
61a

of such an image imposes no duty on the recipient to
keep the image private and operates to relinquish all
privacy rights of the person depicted therein.
Defendant offers no legal support for this assertion,
and we have held above that the sharing of a private
sexual image is a truly private matter. Moreover,
acceptance of defendant’s argument would impose the
strictures of a commercial transaction on personal and
intimate communications by requiring that the person
portrayed elicit an express promise from the recipient
that the image will be kept private. Defendant has not
cited any authority holding that due process requires
such formality. Consequently, we reject defendant’s
argument that a person who receives a private sexual
image acquires an ownership interest that entitles him
or her to do with it as he or she sees fit, including
dissemination to others without the consent of the
person portrayed. See Thompson, 108 Ill. 2d at 368, 91
Ill.Dec. 610, 483 N.E.2d 1245 (recognizing that a
government may exercise its police power to regulate
or restrain conduct that is harmful to the public
welfare, even where the regulation or restraint may
interfere with the property rights of an individual);
Warren, 11 Ill. 2d at 424-25, 143 N.E.2d 28 (same).
¶ 119 As a final matter, we observe that section 1123.5 is “regarded as the country’s strongest antirevenge-porn legislation yet” (internal quotation
marks omitted) (Bustamante, supra, at 388) and has
been proposed as the model for a federal statute
targeting the nonconsensual dissemination of private
sexual images (Souza, supra, at 118-20). Indeed,
section 11-23.5 is regarded as “a model for all state
revenge porn laws.” Schein, supra, at 1981-88. Based
62a

on the foregoing, we find that section 11-23.5 does not
unconstitutionally restrict the rights to free speech
and due process on the grounds asserted by defendant.
¶ 120 III. CONCLUSION
¶ 121 For the foregoing reasons, the judgment of the
circuit court of McHenry County is reversed, and the
cause is remanded to the circuit court for further
proceedings.
¶ 122 Reversed.
¶ 123 Cause remanded.
Chief Justice Karmeier and Justices Thomas, Kilbride,
and Burke concurred in the judgment and opinion.
Justice Garman dissented, with opinion, joined by
Justice Theis.
¶ 124 JUSTICE GARMAN, dissenting:
¶ 125 Even though both parties agree a strict scrutiny
analysis applies in this case, the majority concludes an
intermediate level of scrutiny is the appropriate
standard, finding section 11-23.5(b) of the Criminal
Code of 2012 (720 ILCS 5/11-23.5(b) (West 2016)) is a
content-neutral time, place, and manner restriction. I,
however, would find the statute criminalizes the
dissemination of images based on their
content—“private sexual images”—and thus strict
scrutiny applies. Moreover, in applying strict scrutiny,
63a

I would find the statute is neither narrowly tailored
nor the least restrictive means of dealing with the
nonconsensual dissemination of private sexual images.
Accordingly, I respectfully dissent.
*23 ¶ 126 “ ‘[T]he First Amendment means that
government has no power to restrict expression
because of its message, its ideas, its subject matter, or
its content.’ ” United States v. Alvarez, 567 U.S. 709,
716, 132 S.Ct. 2537, 183 L.Ed.2d 574 (2012) (quoting
Ashcroft v. American Civil Liberties Union, 535 U.S.
564, 573, 122 S.Ct. 1700, 152 L.Ed.2d 771 (2002)).
“Content-based laws—those that target speech based
on its communicative content—are presumptively
unconstitutional and may be justified only if the
government proves that they are narrowly tailored to
serve compelling state interests.” Reed v. Town of
Gilbert, Arizona, 576 U.S. ––––, ––––, 135 S. Ct. 2218,
2226, 192 L.Ed.2d 236 (2015); see also Ashcroft v.
American Civil Liberties Union, 542 U.S. 656, 660, 124
S.Ct. 2783, 159 L.Ed.2d 690 (2004) (noting the
presumed invalidity of content-based restrictions on
speech and the government’s burden of showing their
constitutionality); People v. Alexander, 204 Ill. 2d 472,
476, 274 Ill.Dec. 414, 791 N.E.2d 506 (2003) (stating
content-based restrictions on speech must survive
strict scrutiny, which “requires a court to find that the
restriction is justified by a compelling government
interest and is narrowly tailored to achieve that
interest”). The restriction on “ ‘speech is unacceptable
if less restrictive alternatives would be at least as
effective in achieving the legitimate purpose that the
statute was enacted to serve.’ ” United States v.
Playboy Entertainment Group, Inc., 529 U.S. 803, 813,
64a

120 S.Ct. 1878, 146 L.Ed.2d 865 (2000) (quoting Reno
v. American Civil Liberties Union, 521 U.S. 844, 874,
117 S.Ct. 2329, 138 L.Ed.2d 874 (1997)).

¶ 127 Contrary to the majority’s belief, the content of
the image is precisely the focus of section 11-23.5. It is
not a crime under this statute to disseminate a picture
of a fully clothed adult man or woman, even an
unflattering image obtained by the offender under
circumstances in which a reasonable person would
know or understand the image was to remain private
and he knows or should have known the person in the
image had not consented to its dissemination.
However, if the man or woman in the image is naked,
the content of that photo makes it a possible crime.
Thus, one must look at the content of the photo to
determine whether it falls within the purview of the
statute. See Reed, 576 U.S. at ––––, 135 S. Ct. at 2227
(“Government regulation of speech is content based if
a law applies to particular speech because of the topic
discussed or the idea or message expressed.”).
¶ 128 The majority, however, contends section 11-23.5
“does not prohibit but, rather, regulates the
dissemination of a certain type of private information.”
Supra ¶ 50. But the statute does not lay out a “privacy
regulation,” it sets forth a criminal offense. As the
statute criminalizes the dissemination of images based
on their content, it should be viewed as a contentbased restriction on speech that must survive strict
scrutiny to be valid.
¶ 129 Assuming the State has a compelling interest in
prohibiting nonconsensual dissemination of private
65a

sexual images, I would find the statute is not narrowly
tailored to promote that interest. The majority cites
the Vermont Supreme Court’s decision in VanBuren,
which involved Vermont’s statute banning disclosure
of nonconsensual pornography. The statute in that
case made it a crime to “ ‘knowingly disclose a visual
image of an identifiable person who is nude or who is
engaged in sexual conduct, without his or her consent,

with the intent to harm, harass, intimidate, threaten,
or coerce the person depicted, and the disclosure would

cause a reasonable person to suffer harm.’ ” (Emphasis
added.) State v. VanBuren, 2018 VT 95, ¶ 5, 214 A.3d
791 (quoting Vt. Stat. Ann. tit. 13, § 2606(b)(1) (2015)).
¶ 130 As the majority recognizes, numerous other
states criminalizing the unlawful dissemination of
private sexual images require a similar intent. Supra
¶ 103. In its strict scrutiny analysis, the VanBuren
majority found the statute at issue was narrowly
tailored, stating, in part, as follows:
“Section 2606 defines unlawful
nonconsensual pornography narrowly,
including limiting it to a confined class of
content, a rigorous intent element that
encompasses the nonconsent
requirement, an objective requirement
that the disclosure would cause a
reasonable person harm, an express
exclusion of images warranting greater
constitutional protection, and a
limitation to only those images that
support the State’s compelling interest
because their disclosure would violate a
66a

reasonable

expectation

of

privacy.”

VanBuren, 2018 VT 95, ¶ 60, 214 A.3d
791.

*24 ¶ 131 Here, however, section 11-23.5 is not
narrowly tailored, and its broad reach could include a
wide swath of conduct, including innocent conduct.
Unlike the Vermont statute’s requirement that the
defendant intend “to harm, harass, intimidate,
threaten, or coerce the person depicted,” section 1123.5 offers no such “rigorous intent element.” See 720
ILCS 5/11-23.5(b) (West 2016). Instead, simply viewing
an image sent in a text message and showing it to the
person next to you could result in felony charges.
Because of the specific intent element, the majority in
VanBuren stated “[i]ndividuals are highly unlikely to
accidentally violate this statute while engaging in
otherwise permitted speech.” VanBuren, 2018 VT 95,
¶ 62, 214 A.3d 791. The same cannot be said of
individuals in Illinois under this statute.
¶ 132 The majority contends that “although a
malicious purpose is not expressly mandated, the
breadth of section 11-23.5(b) is effectively limited by
the five elements and conditions that define the
prohibited conduct.” Supra ¶ 105. I disagree. The
elements and conditions do not limit the breadth of the
statute at all but instead reach an expansive amount
of conduct. Unlike those states that specifically require
an intent to harm, harass, intimidate, threaten, coerce,
embarrass, frighten, terrify, torment, terrorize,
degrade, demean, annoy, alarm, or abuse the victim,
the Illinois statute requires nothing of the sort.
Although the majority finds the statute “implicitly
67a

includes an illicit motive or malicious purpose” (supra
¶ 106), the absence of any such nefarious intentions
proscribed by other states opens the door wide for
innocent conduct to be criminalized. The legislature’s
failure to include any one of the above stated terms
belies the majority’s claims that “the inclusion of an
explicit motive to cause harm would not appreciably
narrow its scope.” Supra ¶ 106.
¶ 133 The Vermont statute also limited a violation to
when the disclosure would cause a reasonable person
to suffer harm, and it defines “harm” as “physical
injury, financial injury, or serious emotional distress.”
Vt. Stat. Ann. tit. 13, § 2606(a)(2) (2015). Under the
Illinois law, there is no objective or subjective harm
requirement. Cf. Cal. Penal Code § 647(j)(4)(A) (West
2019) (requiring the victim to suffer “serious emotional
distress”); Conn. Gen. Stat. § 53a-189c(a) (2015)
(requiring the victim to suffer harm as a result of the
dissemination); N.D. Cent. Code § 12.1-17-07.2(2)(c)
(2017) (requiring “[a]ctual emotional distress or harm”
to the depicted individual as a result of the
distribution of intimate images); N.M. Stat. Ann. § 3037A-1(A)(2) (2019) (requiring conduct that “would
cause a reasonable person to suffer substantial
emotional distress”); Or. Rev. Stat. § 163.472(1)(c), (d)
(2017) (requiring the victim to be “harassed,
humiliated or injured by the disclosure” and that “[a]
reasonable person would be harassed, humiliated or
injured by the disclosure”); Utah Code Ann. § 76-5b203(2)(c) (LexisNexis 2019) (requiring “actual
emotional distress or harm” to the person as a result
of the distribution of the intimate image); Wash. Rev.
Code § 9A.86.010 (2018) (requiring the offender to
68a

know or reasonably know the disclosure of the
intimate images would cause harm to the depicted
person). The majority, however, presumes the
dissemination is harmful. Again, along with the
absence of a malicious purpose, the lack of a showing
of any specific harm to the alleged victim casts the net
of criminality too far in my mind.
¶ 134 A hypothetical posed to the State during oral
argument illustrates this point. Two people go out on
a date, and one later sends the other a text message
containing an unsolicited and unappreciated nude
photo. The recipient then goes to a friend, shows the
friend the photo, and says, “look what this person sent
me.” Has the recipient committed a felony? The State
conceded that the recipient had, assuming the
recipient knew or should have known that the photo
was intended to remain a private communication.
*25 ¶ 135 The statute also does not provide the least
restrictive means of dealing with the problem. See
Playboy, 529 U.S. at 813, 120 S.Ct. 1878 (stating that
“[i]f a less restrictive alternative would serve the
Government’s purpose, the legislature must use that
alternative”); Kusper v. Pontikes, 414 U.S. 51, 59, 94
S.Ct. 303, 38 L.Ed.2d 260 (1973) (“If the State has
open to it a less drastic way of satisfying its legitimate
interests, it may not choose a legislative scheme that
broadly stifles the exercise of fundamental personal
liberties.”). The legislature could provide for a private
right of action against an offender. It could also
provide avenues of equitable relief, including
temporary restraining orders, preliminary injunctions,
or permanent injunctions. See, e.g., Ohio Rev. Code
69a

Ann. § 2307.66 (LexisNexis 2018) (providing for a civil
action resulting from the dissemination of images,
including for an injunction, temporary restraining
order, and compensatory and punitive damages).
Instead, the statute criminalizes the conduct and
subjects offenders to a possible term of one to three
years in prison.
¶ 136 The majority concludes “[c]ivil actions are
inadequate” and cites law review articles in support
(supra ¶¶ 73-76), but we should “not assume plausible
alternatives will fail to protect compelling interests;
there must be some basis in the record, in legislative
findings or otherwise, establishing the law enacted as
the least restrictive means.” Denver Area Educational

Telecommunications Consortium, Inc. v. Federal
Communications Comm’n, 518 U.S. 727, 807, 116 S.Ct.

2374, 135 L.Ed.2d 888 (1996) (Kennedy, J., concurring
in part and dissenting in part, joined by Ginsburg, J.);
see also Sable Communications of California, Inc. v.
Federal Communications Comm’n, 492 U.S. 115, 12830, 109 S.Ct. 2829, 106 L.Ed.2d 93 (1989) (noting “the
congressional record contains no legislative findings
that would justify us in concluding that there is no
constitutionally acceptable less restrictive means,
short of a total ban, to achieve the Government’s
interest in protecting minors”). Moreover, “it is the
Government’s obligation to prove that the alternative
will be ineffective to achieve its goals” (Playboy, 529
U.S. at 816, 120 S.Ct. 1878), and the State has not
done so here.
¶ 137 Laws burdening speech based on its content are
subjected to “the most exacting scrutiny.” Turner
70a

Broadcasting System, Inc. v. Federal Communications
Comm’n, 512 U.S. 622, 642, 114 S.Ct. 2445, 129
L.Ed.2d 497 (1994); People v. Jones, 188 Ill. 2d 352,
358, 242 Ill.Dec. 267, 721 N.E.2d 546 (1999). Here, the
statute cannot withstand strict scrutiny, as it is not
narrowly tailored to serve the State’s interests and less
restrictive alternatives are available. Thus, I would
find the statute unconstitutional and affirm the circuit
court’s judgment.
¶ 138 JUSTICE THEIS joins in this dissent.
All Citations
--- N.E.3d ----, 2019 IL 123910, 2019 WL 5287962

71a

APPENDIX B
In the Circuit Court for the 22nd Judicial Circuit
McHenry County, Illinois
[DATE STAMP]
FILED
AUG 08 2018
KATHERINE M. KEEFE
McHENRY CTY. CIR. CLK.
No. 16 CF 935
People of the State of Illinois,
Plaintiff,
vs.
Bethany Austin,

Defendant.
ORDER

People are – in increasing numbers – using their
cell phones to record nude or sexually explicit photos
and videos that are, in turn, shared with their lovers.
But when a given relationship goes south, as most do,
those pictures and videos remain in the hands of the
ex. Some spurned lovers lash out by posting the videos
and pictures on the Internet for all to see, including
family, friends, and prospective employers. It's
sometimes called revenge porn, which has a better ring
than the more accurate non-consensual dissemination
72a

of sexually explicit images. Whichever you call it, more
than three dozen states have made it a crime. Illinois
is one of those states.
More than three years ago, Illinois enacted the
Non-consensual Dissemination of Private Sexual
Images statute. 720ILCS 5/11-23:5. Rather than target
disgruntled ex-boyfriends posting nude images on the
Internet, though, the General Assembly enacted a
statute that criminalizes all manner of dissemination
of all manner of nude or sexually explicit pictures and
portrayals for any purpose whatsoever.
The question presented is whether such a broad
statute is compatible with due process, equal
protection, and free speech.
I. Facts
Bethany Austin is charged in a one-count
indictment with violating the Non-consensual
Dissemination of Private Sexual Images statute. 720
ILCS 5/11-23.5(b). She filed a Motion to Dismiss in
which she argues the statute is unconstitutional both
facially and as applied to the facts in her case. She
never develops an as-applied argument, though, so it's
not addressed here.
Notice of Ms. Austin's Motion was given to the
Illinois Attorney General. See Ill. S. Ct. Rule 19. The
Attorney General has thoroughly briefed and argued
the issues raised in the Motion.
Ms. Austin's Motion alleges numerous facts not
73a

already of record in the case. But this she may do –
even if the Motion only raises issues of law – and the
State's failure to admit or deny those allegations
results in them being accepted as proven for purposes
of the Motion. See 725 ILCS 5/114-l(c)(stating that "[i]f
the motion [to dismiss] alleges facts not of record in
the case the State shall file an answer admitting or
denying each of the factual allegations of the motion").
Regardless of whether admitted or denied, only
properly pled, relevant factual allegations are
considered.
The State filed a Response in support of the
statute's consitutionality. The State also raises
numerous factual allegations not of record in the form
of anecdotal evidence found on various websites.
Because not denied by Ms. Austin, those factual
allegations will also be addressed.
The facts are simple. Ms. Austin dated Matthew
for more than seven years. She, her three children, and
Matthew lived together. Though Matthew was a selfconfessed serial womanizer, Ms. Austin loved him and
believed he was being faithful. They were engaged to
be married.
Matthew's use of Apple products proved to be
the couple's undoing. All data sent to or from
Matthew's iPhone went to his iCloud, which was in
turn connected to Ms. Austin's iPad. As a result, all
texts sent by or to Matthew's iPhone automatically
showed up on Ms. Austin's iPad. Matthew was aware
of this data sharing arrangement and could have
ended it at any time. But he didn't, which is how Ms.
74a

Austin found out about Matthew's relationship with
Elizabeth.
One day, text messages between Elizabeth and
Matthew popped up on Ms. Austin's iPad. Some of the
texts included nude photos of Elizabeth. Three days
later, both of them aware Ms. Austin had received the
pictures and text messages on her iPad, Matthew and
Elizabeth again texted each other. "Is this where you
don't want to message [because] of her?" Elizabeth
asked. Matthew replied, "No, I'm fine. [S]omeone
wants to sit and just keep watching want [sic] I'm
doing I really do not care. I don't know why someone
wou1d wanna put themselves through that." Elizabeth
texted, "I don't either. Sooooooo baby .... "
The wedding was called off and Ms. Austin and
Matthew spent the next three months trying to repair
their relationship. The counseling didn't take, though,
and they broke up. Matthew wanted to tell family and
friends the split was mutual; Ms. Austin wanted to tell
the truth. Matthew beat her to the punch by telling
everyone they split because Ms. Austin was crazy and
no longer cooked or did chores around the house.
In response to Matthew's claims, Ms. Austin
wrote a letter with her version of events. In support,
she attached to the letter four of the naked pictures of
Elizabeth and copies of the text messages between
Matthew and Elizabeth. The record doesn't specify
how many copies of the letter went out and to whom
they were sent. But at least one person – Matthew's
cousin – received the letter, the texts, and the pictures.
75a

Upon hearing from his cousin, Matthew
reported the letter and its contents to the local police.
Investigation commenced, and Elizabeth was
interviewed. At first, Elizabeth said she was concerned
about Ms. Austin's actions, and she would consider
signing a criminal complaint. When next interviewed,
she said the pictures were private and only intended
for Matthew to see. Yet Elizabeth admitted both she
and Matthew "were aware of the iCloud issue, but
thought it had been deactivated at the time she sent
the pictures." Still, Elizabeth never asked Ms. Austin
to delete or otherwise dispose of any of the nude
pictures.
Because she mailed the nude pictures of
Elizabeth, Ms. Austin is charged with violating the
Non-consensual Dissemination statute.
II. Analysis
Ms. Austin raises three challenges to the Nonconsensual Dissemination statute. First, she claims
the statute offends the Due Process Clauses of the
United States Constitution and the Illinois
Constitution because it doesn't have an adequate mens
rea element. U.S. CONST. Amend. XIV § 1; ILL.
CONST. OF 1970 Art. I § 2. Second, she claims the
statute violates the Equal Protection Clause of the
Federal Constitution . U.S. CONST. Amend. XIV § 1.
Third, she c1aims the statute is a content-based
restriction of speech in violation of the Federal and
State Constitutions. U.S. CONST. Amend. I; ILL.
CONST. OF 1970 Art. I § 4.
76a

A. Initial Considerations
Two steps precede the constitutional analyses.
Step one, construe the Non-consensual Dissemination
statute. After all, "a court cannot determine whether
the statute reaches too far without first knowing what
the statute covers." People v. Minnis, 2016 IL 19563 ¶
25. Step two, determine whether Ms. Austin's alleged
conduct violates the statute as construed. If her
conduct doesn't offend the statute, the court need not
reach the constitutional issues. See, e.g., People v. Lee,
214 Ill.2d 476, 482 (2005) (courts should avoid
addressing constitutional issues where the case can be
decided on other grounds).
1. Statutory Interpretation
The Non-consensual Dissemination statute
reads as follows:
§ 11-23.5. Nonconsensual dissemination of private
sexual images.
(a) Definitions. For the purposes of this Section:
"Computer," "computer program", and "data"
have the meanings ascribed to them in § 17-0.5
of this Code.
"Image" includes a photograph, film, videotape,
digital recording, or other depiction or portrayal
of an object, including a human body.
"Intimate parts" means the fully unclothed,
partially unclothed or transparently clothed
77a

genitals, pubic area, anus, or if the person is a
female, a partially or fully exposed nipple,
including exposure through transparent
clothing.
"Sexual act" means sexual penetration,
masturbation, or sexual activity.
"Sexual activity" means any:
(1)

knowing touching or fondling by the
victim or another person or animal,
either directly or through clothing, of the
sex organs, anus, or breast of the victim
or another person or animal for the
purpose of sexual gratification or arousal;
or

(2)

any transfer or transmission of semen
upon any part of the clothed or unclothed
body of the victim, for the purpose of
sexual gratification or arousal of the
victim or another; or

(3)

an act of urination within a sexual
context; or

(4)

any bondage,
masochism; or

(5)

sadomasochism abuse in any sexual
context.

(b)

A

person

fetter,

commits
78a

or

sadism

non-consensual

dissemination of private sexual images when he
or she:
(1)

Intentionally disseminates an image of
another person:
(A) who is at least 18 years of age; and
(B) who is identifiable from the image
itself or information displayed in
connection with the image; and
(C) who is engaged in a sexual act or
whose intimate parts are exposed, in
whole or in part; and

(2)

obtains the image under circumstances
in which a reasonable person would know
or understand that the image was to
remain private; and

(3)

knows or should have known that the
person in the image has not consented to
the dissemination.

(c) The following activities are exempt from the
provisions of this Section:
(1)

The intentional dissemination of an
image of another identifiable person who
is engaged in a sexual act or whose
intimate parts are exposed when the
dissemination is made for the purpose of
a criminal investigation that is otherwise
79a

lawful.
(2)

The intentional dissemination of an
image of another identifiable person who
is engaged in a sexual act or whose
intimate parts are exposed when the
dissemination is for the purpose of, or in
connection with, the reporting of
unlawful conduct.

(3)

The intentional dissemination of an
image of another identifiable person who
is engaged in a sexual act or whose
intimate parts are exposed when the
images involve voluntary exposure in
public or commercial settings

(4)

The intentional dissemination of an
image of another identifiable person who
is engaged in a sexual act or whose
intimate parts are exposed when the
dissemination serves a lawful public
purpose.

(d) Nothing in this Section shall be construed to
impose liability upon the following entities
solely as a result of content or information
provided by another person:
(1)

an interactive computer service, as
defined in 47 U.S.C. 230(f)(2);

(2)

a provider of public mobile services or
private radio services, as defined in § 1380a

214 of the Public Utilities Act; or
(3)

a telecommunications
broadband provider.

network or

(e) A person convicted under this Section is
subject to the forfeiture provisions in Article
124B of the Code of Criminal Procedure of 1963.
(f) Sentence. Non-consensual dissemination of
private sexual images is a Class 4 felony.
720 ILCS 5/11-23.5. Enacted with an effective date just
over three years ago, no case has yet been reported
from the Illinois Appellate Court or Supreme Court
interpreting the statute.
When construing a statute, the court's main goal
is to determine and give effect to the General
Assembly's intent. Minnis at ¶ 25. Though many
factors apply, which will be addressed as they arise,
"[t]he most reliable indicator of legislative intent is the
language of the statute, given its plain and ordinary
meaning." Id. Most importantly, the court is obligated,
when reasonably possible, to construe the statute in a
manner that upholds the statute's constitutional
validity. People v. Relerford, 2017 IL 121094 ¶ 30.
(Relerford II).
As its title suggests, the statute is aimed at
prohibiting the dissemination of sexually explicit
images of another without that other person's consent.
The slang term for it is revenge porn, though neither
revenge nor any other motivation is mentioned in the
81a

statute. Stereotypical revenge porn scenarios involve a
couple using their cell phone to record their sexual
congress or one sending naked pictures to the other via
phone, tablet, or computer. Both participants
undoubtedly hope at the time the images are created
that the other will never share them with the world.
Yet when their relationship ends, they are frequently
posted on the Internet for the world to see. The person
depicted is often embarrassed and sometimes the
victim of harassment, stalking, threats of sexual
assault, lost employment, and so on. These are very
real and serious ramifications, and the majority of
victims are female. Andrew Koppelman, Revenge
Pornography and First Amendment Exceptions, 65
EMORY L.J. 661, 661 (2016).
To address these concerns, Sen. Michael
Hastings introduced Senate Bill 2694. The original
legislation was aimed mostly at the stereotypical
scenarios: It “[p]rovide[d] that a person who knowingly
places, posts, or reproduces on the Internet a
photograph, video, or digital image of a person in a
state of nudity, in a state of sexual excitement, or
engaged in any act of sexual conduct or sexual
penetration, without the knowledge and consent of that
person, is guilty of a Class 4 felony." 98th General
Assembly, Bill Status of SB 2694, Illinois General
Assembly, http://www.ilga.gov/legislation/
BillStatus.asp?GA=98&DocTypeID=SB&DocNum=2
694&GAID=12&SessionID=85&LegID=78395 (last
visited July 19, 2019). Many amendments were
proposed: an intent to inflict emotional harm element;
a definition of dissemination consistent with
widespread public release; and the limitation to only
82a

images consisting of photographs, videos, and digital
images. Id. Most obviously discarded on the road from
original proposal to enacted statute was any reference
whatsoever to the Internet. Id. So it's obvious the
finished product – the statute ultimately enacted – is
aimed at far more than the stereotypical revenge porn
scenarios.
To prevail under the Non-consensual
Dissemination statute, the State must prove beyond a
reasonable doubt eight elements. Those are that the
defendant (1) intentionally (2) disseminated (3) an
image of another person who was (4) at least 18 years
old, (5) identifiable from the image itself or from
information displayed in connection with the image,
and (6) who is engaged in a sexual act or whose
intimate parts are exposed in whole or in part; and (7)
the defendant obtained the image under circumstances
in which she should have reasonably known or
understood the image was to remain private; and (8)
the defendant knew or should have known the person
in the image has not consented to the dissemination.
720 ILCS 5/11-23.5(b). Many of these elements are
straightforward, but a few need to be fleshed out.
The first, third, fourth, fifth, seventh, and eighth
elements are simple. The first element, “intentional" is
defined by statute, 720 ILCS 5/4-4; the third, fourth,
fifth, sixth,1 seventh, and eighth elements mean what
1

Under 720 ILCS 5/11-23.5(a)(4), sexual activity includes
"any bondage, fetter, or sadism masochism", but has no reference
to a sexual context. So all photographs showing someone fettered
or in bondage – such as news photos of arrestees and prisoners,

83a

they say.
A glitch arises in the second element, which
requires dissemination. According to the dictionary,
something is disseminated when it is scattered widely
or promulgated. Disseminate, THE AMERICAN
HERITAGE DICTIONARY (2nd college ed. 1985).
According to the State, though, dissemination occurs if
the image is shared with only one additional person. So
in the State's view, if Jane emails a naked selfie to her
boyfriend John, then he disseminates the image when
he shows it to his best friend Paul. But showing the
picture to one person is not scattering it widely, though
it can have that effect if Paul gets a copy and forwards
the copy to a friend who forwards a copy and so on. The
State's urged reading of the statute is thus consistent
with the legislative intent and also explains why the
original definition of dissemination and the
requirement that the image be posted on the Internet
disappeared during the legislative process: The
General Assembly wanted the statute to cast a wide
net.
Finally, the statute does not prohibit all
dissemination of all nude or sexually explicit images.
The statute lists four exempt activities. 720 ILCS 5/1123.5(c). All four exemptions are affirmative defenses to
the charged elements set forth in 720 ILCS 5/1123.5(b). People v. Tolbert, 2016 IL 117846 ¶ 14 (noting
that exemptions not descriptive of the offense need not
historic photos of slaves, and publicity posters of escape artists –
would be included. This was probably not the General Assembly's
intent, but it's not necessary to the analysis here.

84a

be alleged in the complaint and proven by the State;
they are affirmative defenses).
2. Statutory Application to the Facts Here
Based even on her version of events, a jury could
find Ms. Austin guilty of violating the Non-consensual
Dissemination statute. She (1) intentionally (2) mailed
to Matthew's cousin (3) four photos of Elizabeth. In
each of the photos, Elizabeth (4) is at least 18 years
old, (5) can be identified from each photo, and (6) is
nude. Further, because the nude selfies were
accompanied by text messages directed at Matthew, (7)
Ms. Austin obtained the photos under circumstances in
which she should have reasonably known or
understood they were to remain private between
Elizabeth and Matthew. Finally, (8) Ms. Austin knew
or should have known that Elizabeth had not
consented to the dissemination. Malicious and mocking
as Elizabeth and Matthew's text exchange may have
been three days after Ms. Austin got the photos,
nothing in those texts can be construed as granting Ms.
Austin permission to publish the pictures.
Because the State can thus prevail in a
prosecution, the constitutional challenges must be
addressed.
B. The Due Process Analysis
Ms. Austin argues that two of the Nonconsensual Dissemination statute's mens rea
requirements – those in 720 ILCS5/11- 23.5(b)(2)-(3) –
offend due process. Under the challenged provisions,
85a

Ms. Austin can be convicted if, in relevant part, she
should have reasonably known or understood that
Elizabeth intended the disseminated images to remain
private, 720 ILCS 5/11-23.5(b)(2), and she knew or
should have known that Elizabeth had not consented
to the dissemination. 720 ILCS 5/11-23.5(b)(3). The
italicized terms, she argues, don't pass constitutional
muster because they constitute a mere negligence
standard. In support, she cites the Illinois Appellate
Court's decision in People v. Relerford, 2016 IL App
(1st) 132531 ¶¶ 26-33 (Relerford I).
In Relerford I, the Appellate Court reviewed
certain provisions of the stalking, 720 ILCS 5/127.3(a)(1)-(2), and cyberstalking, 720 ILCS 5/127.5(a)(1)-(2), statutes. The challenged provisions
allowed conviction if, in part, the defendant knew or
should have known his conduct would distress a
reasonable person; it was irrelevant whether the
defendant was actually aware his conduct was causing
distress. Relying mainly on Elonis v. United States,
135 S. Ct. 2001 (2015), the Appellate Court held that
the reasonable person standard of intent in a criminal
case violates the Due Process Clause of the Fourteenth
Amendment to the Federal Constitution, U.S. CONST.
Amend. XIV § 1, and struck down the challenged
portions of the two statutes. Relerford I at ¶¶ 27, 31,
33.
Ms. Austin's due process arguments fail, though.
The Appellate Court's ruling was appealed to, and
affirmed by, the Illinois Supreme Court, but only after
the latter expressly rejected the Appellate Court's
interpretation of Elonis and its due process analysis.
86a

Relerford II at ¶¶ 19-22. "Contrary to the views

adopted by the [A]ppellate [C]ourt," the Supreme Court
wrote, "substantive due process does not categorically
rule out negligence as a permissible mental state for
imposition of criminal liability, and Elonis does not
suggest such a categorical rule." Id. at ¶ 22.
In her Reply, Ms. Austin urges the Supreme
Court to reconsider its position. And this the Supreme
Court is free to do. But unless and until such time as
that occurs, Relerford II binds all Illinois trial and
appellate judges. A negligent mens rea in a criminal
statute thus satisfies due process.
C. The Equal Protection Analysis
Ms. Austin next argues the Non-consensual
Dissemination statute offends equal protection. Under
the statute, individuals can be punished for nonconsensual dissemination, but internet service
providers, telecommunications and broadband
providers, and the like are immune from prosecution.
720 ILCS 5/11-23.5(d). In response, the State argues
equal protection is not offended because individuals
subject to criminal liability are not similarly situated
to the exempted communications entities. See In re
Derrico G., 2014 IL 114463 ¶ 92 (noting that equal
protection doesn't apply to classifications of dissimilar
entities).
Neither argument is precisely correct. Ms.
Austin argues that she is similarly situated to
communications entities because the exemption is
absolute. In other words, because Verizon is exempt as
87a

a mobile service provider, Ms. Austin claims it cannot
be prosecuted for violating the statute even if it meets
all other elements of the offense by, for example,
intentionally posting nude pictures of customers on its
Facebook page. But that's not true: The exemption
applies only when dissemination is "the result of
content or information provided by another person,"
720 ILCS 5/11-23.5(d), and the legislative intent seems
clear that this applies only to Verizon acting as the
conduit of – rather than active participant in – the
prohibited dissemination. The exemption only extends
to the classic revenge porn scenario where Verizon
can't be held liable when its cell phone service is the
unknowing carrier of the nude images of the
individuals girlfriend.
The State, in turn, misses the one situation in
which the exemptions permit something approaching
active participation in the dissemination.
Communications entities are mere conduits used by
individuals to post revenge porn, the State claims.
Individuals thus act intentionally when they
disseminate the pictures, but communications entities
don't because they don't even know they are
disseminating pictures. Yet what about the revenge
porn websites – and there are apparently dozens of
them – who expressly encourage non-consensual
dissemination in violation of the statute? They are
active participants acting intentionally, and in an
arguably far more egregious manner because their
sites may reach millions. Still, they are expressly
exempt as interactive computer services. 720 ILCS
5/11-23.5(d)(1); see also 47 U.S.C. § 230(f)(2) (defining
interactive computer service). Ms. Austin is thus
88a

correct that some revenge porn websites may escape
punishment. But that's because the United States
Congress has preempted the states from punishing
these internet service providers. 47 U.S.C. § 230(e)(3).
The individuals subject to prosecution by the
Non-consensual Dissemination statute are thus not
similar to the exempted entities. Unlike the conduits,
individuals charged know the nature of the images
they are disseminating; and unlike the websites,
individuals charged are not exempt from prosecution
by Federal preemption.
The Non-consensual Dissemination statute thus
does not violate equal protection.
D. The Free Speech Analysis
The main argument – and the one on which both
parties focused their attention in their pleadings and
during arguments – is that the Non-consensual
Dissemination statute is an unconstitutional contentbased restriction of speech.
The First Amendment prohibits any law that
abridges the freedom of speech. U.S. CONST. Amend.
I. The Illinois Constitution is even broader, insuring
everyone's right to "speak, write, and publish freely,
being responsible for the abuse of that liberty.” ILL
CONST. OF 1970 Art. I § 4. A violation of the former
always constitutes a violation of the latter.
Ms. Austin's argument is in three parts. The
Non-consensual Dissemination statute is a content89a

based speech restriction and thus subject to strict
scrutiny; the statute serves no compelling government
interest; and even if it does serve a compelling
government interest, the statute is not narrowly
tailored to serve that interest. The statute is thus
facially invalid.
The State responds that Ms. Austin's argument
fails for three reasons. The Non-consensual
Dissemination statute governs only speech that
constitutes a true threat or fighting words, as a result
of which the governed speech has no constitutional
protection; if that's wrong, then the First Amendment
still gives no right to disseminate truly private facts;
and if that's also wrong, then the statute is narrowly
tailored to serve a compelling government interest.
1. Is Speech Restricted?
The first and most obvious issue is whether the
Non-consensual Dissemination statute constitutes a
restriction of speech. Under the statute, persons can be
convicted for intentionally disseminating prohibited
images, which appears to prohibit conduct rather than
speech. But giving someone a picture or video
constitutes speech within the meaning of the First
Amendment if the purpose of the delivery is to provide
the recipient with the speech contained therein.
Bartnicki v. Vopper, 532 U.S. 514, 527 (2001) (noting
that delivery of a tape recording, a handbill, and a
pamphlet are all protected speech when the purpose of
delivery is to provide the recipient with the speech
contained within). Prohibiting the delivery of a nude or
sexually explicit picture or video is thus a restriction of
90a

speech. See United States v. Stevens, 559 U.S. 460, 468
(2010) (applying the First Amendment freedom of
speech to a statute barring photos and videos of animal
cruelty); United States v. Playboy Entertainment Grp.,
529 U.S. 803, 811 (2000) (applying the First
Amendment freedom of speech to Federal regulations
aimed at sexually explicit television programming).
The Non-consensual Dissemination statute
restricts speech rather than conduct because the
purpose of delivery is to provide the audience with the
speech contained therein – the nude or sexually
explicit images.
2. Is This A Content-Based Restriction?
The next question is whether the speech
restriction here is content-based. A government
regulation of speech is content based where it targets
(1) speech defined by specific subject matter; (2) speech
defined by its function or purpose; or (3) speech
restrictions that appear content-neutral, but cannot be
justified without regard to the content of the regulated
speech. Reed v. Town of Gilbert, 135 S. Ct. 2218, 2227
(2015). The first type – speech defined by specific
subject matter – is the easiest and most common, and
it's applicable here.
In Reed, the town's ordinance "identifie[d]
various categories of signs based on the type of
information they convey, then subject[ed] each category
to different restrictions." 135 S. Ct. at 2224. Ideological
signs, for example, could be twenty square feet in area
and placed in all zoning districts without time limit,
91a

but political signs could only be sixteen square feet in
area if placed on residential property and couldn't be in
place for more than seventy-five days. Id. at 2224-25.
The District Court and the Court of Appeals found the
sign ordinance content-neutral – and upheld its
constitutionality – because enforcement required no
inquiry into the substance of the ideologies or politics
being advanced; the ordinance treated communists and
conservatives alike. Id. at 2226. The Supreme Court
disagreed with the content-neutral categorization.
Because. the ordinance created sign categories based
on subject matter and then treated the categories
differently, the Court held the ordinance imposed a
content-based regulation of speech. Id.
Similarly, the regulation in Playboy
Entertainment was a content-based restriction because

it targeted only sexually explicit movies rather than all
movies. 529 U.S. at 811.
Likewise, the criminal statute in Stevens was a
content-based restriction because it prohibited only
photos and videos depicting animal cruelty rather than
all photos and videos. 559 U.S. at 468.
Similarly, the Non-consensual Dissemination
statute is a content-based speech restriction because it
doesn't target all pictures, videos, depictions, and
portrayals, but only those showing nudity or sexual
activity.
3. Is The Targeted Speech Protected?
But as the State points out, not all content-based
92a

restrictions trigger First Amendment protections.
Categories of unprotected speech include "obscenity,
defamation, fraud, incitement, and speech integral to
criminal conduct." Stevens, 559 U.S. at 468-69
(citations omitted). The parties agree that the images
prohibited by the Non-consensual Dissemination
statute don't fit into any of those unprotected
categories – the most notable for purposes here being
the obscenity category. See, e.g., Miller v. California,
413 U.S. 15, 24 (1973)(defining obscene speech as that
which, when taken as a whole, appeals to the prurient
interest, portrays sexual activity in a patently offensive
way, and has no serious literary, artistic, political, or
scientific value).
The State alleges, however, that the prohibited
images are constitutionally unprotected true threats or
fighting words. The State isn't clear which applies
because it conflates two distinct categories of
unprotected speech. Speech "qualifies as a true threat
if it contains a 'serious expression of an intent to
commit an act of unlawful violence.'"Relerford II, 2017
IL 121094 ¶ 37. Fighting words, on the other hand, are
"those personally abusive epithets which, when
addressed to the ordinary citizen, are, as a matter of
common knowledge, inherently likely to provoke
violent reaction." Cohen v. California, 403 U.S. 15, 20
(1971). The former threatens violence on a listener or
third party, while the latter provokes a violent reaction
by the listener or third party. Credibly threatening to
murder or beat someone is thus a true threat; hurling
racial slurs at a minority constitutes fighting words.
In support of whichever argument it makes –
93a

and the court will consider both – the State asserts
several unfounded presumptions. First, the State
claims that "the dissemination of sexually explicit
images of another without their consent serves no
purpose other than to intimidate the victim." State's
Response at 10. But that's demonstrably untrue, as the
facts here attest. Ms. Austin didn't disseminate
Elizabeth's nude pictures to intimidate Elizabeth; she
did it to defend herself from Matthew's slander – to
convince friends and family that Matthew's
philandering, rather than her al1eged craziness and
laziness, was the reason for the couple's broken
engagement. And where Matthew had already labeled
her crazy, those photos were arguably the best
evidence to end the argument. After all, who would
believe the conspiracy theories of a crazy person? Take
the more typical scenario, too. A girlfriend texts nude
selfies to her boyfriend who, in turn, shows them to his
buddies. The boyfriend has violated the statute, but he
did it to brag rather than to bully.
Is non-consensual dissemination of prohibited
images sometimes done with the intent to intimidate?
Sure. But the statute here doesn't require it.
Second, the State alleges non-consensual
dissemination of prohibited images "serves no purpose
other than to cause fear and suffering in its victims."
State's Response at 14. Also untrue. What if the person
depicted is an exhibitionist? They may not have
consented, but they're not harmed; they're delighted by
the dissemination. Or what if the person depicted is
deceased? For example, John rummages through
Grandma's attic after she dies and comes across a
94a

sketchbook containing nude drawings of Grandma by
Grandpa. The statutory definition of image includes
depictions and portrayals, which encompass works of
art. See Depict, THE AMERICAN HERITAGE
DICTIONARY (defining depict as to represent in
picture, sculpture, or words). And the sketchbook is
hidden in the attic, so the trier of fact can reasonably
infer that Grandma wanted the images to remain
private and never consented to their release. As a
result, if John shows the artwork to other family
members, he violates the statute. But how has
Grandma suffered where she's dead?
Again, does non-consensual dissemination of
prohibited images sometimes cause fear and suffering.
To be sure. But again, the statute neither inquires into
nor requires any such harm.
a. True Threats
After asserting the above presumptions, the
State cites Virginia v. Black, 538 U.S. 343 (2003),
which illustrates the constitutional peril of
presumptive harm or purpose. In Black, the Supreme
Court analyzed a Virginia law that criminalized cross
burning with the intent to intimidate, but where the
mere act of cross burning was prima facie evidence of
intimidation. Id. at 347-48. Cross burning has long
been used to intimidate, as in the case of the Ku Klux
Klan burning it in the front lawn of a home. Id. at 365.
Because of that "long and pernicious history as a signal
of impending violence," the Court wrote, Virginia could
constitutionally prohibit cross burning when done with
the intent to intimidate. Id. at 362-63. But presuming
95a

intent to intimidate from the mere act of burning a
cross is another thing.
The Virginia statute's prima facie evidence
provision created a rebuttable presumption that any
time a cross was burned it was with the intent to
intimidate. Id. at 365. Conviction was thus permitted
in all cross-burning cases where defendants exercise
their constitutional right to not present evidence to
rebut the presumption of improper purpose. Id. Even
where defendants present a defense, the rebuttable
presumption "makes it more likely that the jury will
find an intent to intimidate regardless of the particular
facts of the case." Id. By far the biggest problem with
the prima facie evidence provision was its infringement
on protected speech. To be sure, cross burning has a
long history of being used to intimidate. Yet cross
burning has other purposes, like symbolizing an
ideology – the Klan burns it at their meetings to
symbolize common purpose – and artistically depicting
history, as in the movie Mississippi Burning. Id. at
365-66. Both are constitutionally protected uses of
cross burning that cannot be chilled or stifled, as a
result of which the prima facie evidence provision was
unconstitutional on its face. Id.
Sure, Black is distinguishable. Black permits
criminalizing historically intimidating speech when
done with the purpose to intimidate; the Nonconsensual Dissemination statute criminalizes
unthreatening speech that has no violent history when
done for any purpose whatsoever. So if it can't be done
in Black, how can it be done under the statute here? To
be sure, disseminating the pictures can cause the
96a

persons depicted to suffer embarrassment and ridicule,
but there is no threat of actual and unlawful violence.
See, e.g., Relerford II at ¶ 38 (pointing out that the
State offered "no cogent argument as to how a
communication to or about a person that negligently
would cause a reasonable person to suffer emotional
distress ... constitutes a 'serious expression of an intent
to commit an act of unlawful violence'"). Even if
suffering embarrassment and ridicule is sufficient to
constitute a true threat, the statute doesn't require
proof of intent to inflict that harm. Rather, as the State
points out, the statute presumes ill intent. Under
Black, that's a problem.
Also, as in Black, the Non-consensual
Dissemination statute chills protected speech. For
example, what if the pictures depict sexual activities
on school grounds between a principal and her
underling – as allegedly occurred in one of the cases
cited in the State's Response – or in the Oval Office
between the President of the United States and his
intern? Dissemination of those images would probably
serve "a lawful public purpose" and be thus exempt
from criminal liability. 720 ILCS 5/11-23.5(c)(4). Yet
the exemptions are affirmative defenses that must be
raised by defendants and deemed applicable by a jury.
Tolbert, 2016 IL 117846 ¶ 14. So just like the
rebuttable presumption clause in Black, the
exemptions here aren't raised unless defendants forego
their constitutional right to not present evidence; juries
can still disregard the affirmative defense and convict
based on protected speech; and protected speech will
thus be chilled by fears of prosecution and conviction.
97a

The Non-consensual Dissemination statute is
not aimed at true threats. If it were, it would be
unconstitutional pursuant to Black.
b. Fighting Words
In R.A.V. v. City of St. Paul, 505 U.S. 377 (1992),
the Supreme Court considered whether a cross burning
statute was constitutional where it was limited to
conduct amounting to fighting words. (Maybe this
explains why the State conflated the categories of true
threats and fighting words: Both can apply to the same
speech.) Initially, the Court noted that even speech
that may be regulated because of its constitutionally
proscribable content is not "entirely invisible to the
Constitution." Id. at 383. So "[t]he government may not
regulate use based on hostility – or favoritism –
towards the underlying message expressed." Id. at 386.
For example, the government can outlaw slander, but
it can't outlaw only slander against the government. Id.
at 384. Likewise, the St. Paul ordinance was facially
unconstitutional because it didn't prohibit all fighting
words, but implicitly targeted only those that "insult,
or provoke violence, 'on the basis of race, color, creed,
religion, or gender."' Id. at 391. And that is both a
content- and viewpoint-based restriction of speech in
violation of the First Amendment. Id. at 391-92.
In R.A.V., the Court also disregarded any
distinction between the type of speech being regulated,
on the one hand, and the injury caused on the other.
Justice Stevens's concurrence asserted that the
challenged ordinance "regulates speech not on the
basis of its subject matter or the viewpoint expressed,
98a

but rather on the basis of the harm the speech causes."
Id. at 433 (Stevens, J., concurring) (emphasis in
original). But that's wordplay, the Court held. What
differentiates the harm caused by the prohibited
speech from the harm caused by other fighting words
is the distinctive idea being conveyed by the distinctive
message. Id. at 392-93. Racial slurs may cause more
harm than insulting your mother, but that's because
racial slurs are a more odious type of fighting words
than mother jokes.
Though distinguishable, much of R.A.V. applies
here. First and most obviously, the Non-consensual
Dissemination statute does not target fighting words.
The State claims that because the prohibited images
injure the person depicted, they are fighting words. But
fighting words injure or provoke violence in the
audience of the speech, not the subject of the speech.
And the audience – those who see naked or sexual
pictures – are rarely injured or incited to violent
reaction.
Second, even if the prohibited pictures are
fighting words, they aren't always prohibited.
Remember, no crime occurred here when Elizabeth
first sent the nude pictures to Matthew. So why can
Ms. Austin be prosecuted for defending herself from
slander by showing someone Elizabeth's nude picture,
but Elizabeth can't be prosecuted for intentionally
disseminating the same picture to Matthew? Or, to
change the facts a bit, why can Elizabeth send the
pictures to Matthew to attempt to entice him out of his
relationship with Ms. Austin, but Ms. Austin cannot,
upon discovering the pictures, show them to
99a

Elizabeth's husband to shame her into staying away
from Matthew? This is thus a forbidden viewpointbased restriction. R.A.V. was clear: The government
"has no such authority to license one side of a debate to
fight freestyle, while requiring the other to follow
Marquis of Queensberry rules." Id. at 392.
The Non-consensual Dissemination statute is
not aimed at fighting words, If it were, it would be
unconstitutional pursuant to R.A.V.
4. May The State Still Restrict The Targeted Speech?
Restricting the dissemination of nude or sexual
images still complies with the First Amendment, the
State next argues, because those images are not of
legitimate concern to the public. In support, the State
equates the statute to the civil tort of public disclosure
of private information.
In Green v. Chicago Tribune Co., 286 Ill. App. 3d
1 (1st Dist. 1996), the Appellate Court discussed the
public disclosure tort. To prevail, the plaintiff must
prove the defendant (1) publicized (2) the plaintiff's
private, not public, life, and that the matter publicized
was(3) highly offensive to a reasonable person and (4)
not of legitimate public concern. Id. at 5. Thus, the
Chicago Tribune could be held liable for entering a
dying child's hospital room without permission,
photographing his dead body, overhearing his mother
whisper her last words to him, and subsequently
publishing the pictures and the mother's last words in
its newspaper. Id. at 12-13.
100a

Compare those tort elements to the Nonconsensual Dissemination statute. The tort requires
broad dissemination to the public at large,
RESTATEMENT (SECOND) OF TORTS § 652D comm.
a, or to a group with a special relationship to the
plaintiff, like all fellow employees. Miller v. Motorola,
Inc., 202 Ill. App. 3d 976, 980-81 (1st Dist. 1990). In
Green, for example, the pictures and last words were
published in a newspaper with massive circulation,
which was sufficient to meet the first tort element. 286
Ill. App. 3d at 6. The statute here, on the other hand,
requires only dissemination to one person.
Second, the fourth tort element expressly
excludes matters of public interest. Green, 286 Ill. App.
3d at 5. The burden is thus on the plaintiff to negate
dissemination for a public purpose. The statute here
makes public purpose an affirmative defense, though,
which shifts the burden of proof to the defendant.
Third, and most obvious, the tort only results in
a money judgment for broadly publishing private facts.
The statute here permits imprisonment for showing
one person a picture.
The State also cited Gilbert v. Medical
Economics Co., 665 F.2d 305 (10th Cir. 1981), the facts
of which undermine the State's position. In Gilbert, the

plaintiff was a doctor whose name, photograph, and
other personal facts were published as part of an
article about two cases in which the doctor appeared to
have committed malpractice. Id. at 306-07. Though the
10th Circuit held that non-newsworthy private facts
are not protected by the First Amendment,
101a

newsworthy private facts do enjoy such protections. Id.
at 308. And, as relevant here, the court noted that the
plaintiff's photograph "strengthened the impact and
credibility of the article," id., just as Ms. Austin's
dissemination of Elizabeth's texts and pictures
undoubtedly proved to all recipients that Matthew had
lied about the cause of the break up. A picture is, after
all, worth a thousand words.

Green, Miller v. Motorola, and Gilbert all relied

on the tort of public disclosure of private information
as proposed in RESTATEMENT (SECOND) OF
TORTS § 652D (1977). A quick look at § 652D
demonstrates the tenuous nature of using a civil tort to
validate a criminal statute. "This Section provides for
tort liability involving a judgment for damages for
publicity given to true statements of fact," the Special
Note reads. "It has not been established with certainty
that liability of this nature is consistent with freespeech and free-press provisions of the First
Amendment to the Constitution." Id. This uncertainty
is exacerbated where the Supreme Court has
disavowed any notion that its proscription of limited
areas of speech – like fighting words and true threats
– establishes "a freewheeling authority to declare new
categories of speech outside the scope of the First
Amendment. Stevens, 559 U.S. at 472. So if a type of
speech – like showing someone truthful, if private,
nude or sexual images – is not already proscribed, it's
not likely to be proscribed anytime soon.
To the contrary, the Supreme Court Court has
repeatedly refused "to answer categorically whether
truthful publication may ever be punished consistent
102a

with the First Amendment." Bartnicki, 532 U.S. at 529.
The Court has, however, consistently refused to
recognize a privacy restriction on truthful speech. In
Florida Star v. B.J.F, 491 U.S. 524, 527 (1989), a
Florida rape shield law made it unlawful for a
newspaper to print or publish the name of a sex
assault victim. Id. at 526. A newspaper trainee lawfully
obtained an unredacted police report of a rape. Id. at
527. The newspaper printed a brief article about the
incident, including the victim's full name. Id. The
victim sued under the rape shield law; the newspaper
defended by claiming the imposition of sanctions under
the law offended the First Amendment. Id. at 528. The
trial judge denied the newspaper's motion for directed
verdict, holding the statute struck an appropriate
balance between the victim's privacy rights and the
First Amendment rights at issue. Id. The judge then
directed verdict against the newspaper and in favor of
the victim on the issue of liability. Id. at 528-29. The
Florida Appeals Court affirmed; the State Supreme
Court denied discretionary review; and the United
States Supreme Court reversed. Id. at 529. "[W]here a
newspaper has published truthful information which
it has lawfully obtained, punishment may lawfully be
imposed, if at all, only when narrowly tailored to a
state interest of the highest order;" and that wasn't
present in the case. Id. at 541.
Nor is Florida Star an outlier. In Cox
Broadcasting Corp. v. Cohn, 420 U.S. 469 (1975), the
Court reversed a civil damages award against a
newspaper that had published the lawfully obtained
name of a rape-murder victim. In Oklahoma
Publishing Co. v. Oklahoma County District Court, 430
103a

U.S. 308 (1977), the Court found unconstitutional a
trial court's order prohibiting a newspaper from
publishing the name and photograph of a child
involved in a juvenile proceeding. In Smith v. Daily
Mail Publishing Co., 443 U.S. 97 (1979), the Court
found unconstitutional the criminal prosecution under
a state statute of two news agencies that had lawfully
obtained, and then published, the name of a juvenile
court defendant. Finally, in Bartnicki, 532 U.S. at 51718, the Court held that the First Amendment
precluded civil liability for breach of privacy where a
radio station broadcast tapes of illegally intercepted
cell phone conversations concerning a matter of public
interest where the radio station, though aware of the
illegal interception, was not party to any illegal
activity.
The Court has thus invalidated a string of laws
protecting the privacy of rape victims, juveniles, and
those illegally spied upon. How is Elizabeth's privacy
interest in a nude image she created and initially
disseminated more sacrosanct than a rape victim's
privacy interest?
The Court has thus far only recognized limited
civil recourse, which highlights the constitutional
infirmities of the Non-consensual Dissemination
statute. In Cohen v. Cowles Media Co., 501 U.S. 663,
665 (1991), the Court held the First Amendment didn't
preclude suing a newspaper under a theory of
promissory estoppel where the newspaper breached its
promise to keep an informant's name private in
exchange for information. The reasoning was simple:
Laws of general application don't violate the First
104a

Amendment just because they have an incidental effect
on reporting the news. Id. at 669. Same goes for speech
restrictions, where "burning a flag in violation of an
ordinance against outdoor fires could be punishable,
whereas burning a flag in violation of an ordinance
against dishonoring the flag is not." R.A.V., 505 U.S. at
385. But suing – or prosecuting – based on contract
theory requires proof of a meeting of the minds or
detrimental reliance on a promise of privacy. That's not
required by the statute here.
Take away the tort justification and what's left
is the State's' argument that "the First Amendment
tolerates the regulation of the public disclosure of
private information where that information is not of
legitimate concern to the public." State's Response at
14. But the whole point of the First Amendment is that
the government doesn't get to decide what speech is
important and what isn't. There is no "test that may be
applied as a general matter to permit the Government
to imprison any speaker so long as his speech is
deemed valueless or unnecessary, or so long as an ad
hoc calculus of costs and benefits tilts in a statute's
favor." Stevens, 559 U.S. at 471. After all, "[m]ost of
what we say to one another lacks 'religious, political,
scientific, educational, journalistic, historical, or
artistic value' (let alone serious value), but it is still
sheltered from Government regulation." Id. at 479
(emphasis in original).
The speech targeted
Amendment protections.

here

enjoys

5. Content-Based Free Speech Analysis
105a

First

"Content-based laws – those that target speech
based on its communicative content – are
presumptively unconstitutional and may be justified
only if the government proves that they are narrowly
tailored to serve compelling state interests." Reed, 135
S. Ct. at 2226. This is usually referred to as strict
scrutiny. And the State argues the Non-consensual
Dissemination statute survives strict scrutiny.
a. Is There A Compelling Interest?
The State claims the Non-consensual
Dissemination statute serves a "compelling
government interest in protecting the health and
safety of the victims." State's Response at 16. In
support, the State cites New York v. Ferber, 458 U.S.
747 (1982), in which the State claims the United States
Supreme Court "held that content-based restrictions on
child pornography satisfy strict scrutiny." State's
Response at 17. But that's wrong. In Ferber, the Court
never reached a strict scrutiny analysis. Rather, the
Court held that – like true threats, fighting words, and
obscenity already discussed above – child pornography
is not entitled to First Amendment protection. Ferber,
458 U.S. at 765.
In Ferber, the Court cited five reasons why child
pornography didn't merit First Amendment protection.
First, states have long been recognized as having a
compelling interest in protecting the physical and
emotional well-being of minors, and using children as
the subjects of pornography harms their physiological,
emotional, and mental health. Id. at 756-58. Second,
the distribution of child pornography is intrinsically
106a

related to the sexual abuse of minors in two ways: One,
it creates a permanent record of their abuse; and two,
the production of child pornography, and thus the
abuse of the minors depicted, will continue if
distribution is not prohibited and prevented. Id. at 75961. Third, by taking away the economic motive for
producing child pornography, the abuse of the children
involved in its production ends. Id. at 761-62. Fourth,
"the value of permitting live performances and
photographic reproduction of children engaged in lewd
sexual conduct is exceedingly modest." Id. at 762. If
needed for artistic purposes, the Court noted, someone
over age 18 could be used. Id. at 763. Fifth, "because it
bears so heavily and pervasively on the welfare of
children engaged in its production," finding no First
Amendment protection for child pornography is
compatible with the Court's jurisprudence on
proscribed speech. Id. at 763-64.
None of those justifications apply here. First, no
minors are protected by the Non-consensual
Dissemination statute, which expressly applies only to
those pictured who are over 18 years of age. 720 ILCS
5/11-23.5(b)(1)(A). The compelling government interest
in preventing the exploitation of minors – those who by
legal definition need protection from exploitation –
doesn't extend to preventing exploitation of adults.
Second, the non-consensual dissemination of
prohibited images under the statute is not intrinsically
tied to the production of those images. Child
pornography cannot be produced without abusing a
child; child pornography can thus be banned so
children don't suffer abuse in its production. The
107a

images at issue under the statute, though, are willingly
produced by consenting adults.
Third, there is no economic motive targeted by
the Non-consensual Dissemination statute. Rather, the
State argues, the statute is directed at dissemination
motivated by revenge, intimidation, or humiliation –
though no such illicit motivation is mentioned in, or
required by, the statute.
Fourth, sexually explicit pictures of children are
far different from sexually explicit pictures of adults.
The Court has repeatedly held that, where the subjects
are adults, non-obscene nude or sexually explicit
photos, videos, drawings, paintings, and the like enjoy
the full protection of the First Amendment. Playboy
Entertainment Group, 529 U.S. at 811 (where sexually
explicit programming wasn't alleged to be obscene,
"adults have a constitutional right to view it" and
Playboy has the First Amendment right to transmit it).
Fifth, the Non-consensual Dissemination statute
doesn't bear "heavily and pervasively on the welfare of
children engaged in its production." Ferber, 458. U.S.
at 763-64. Again, by its terms the statute doesn't apply
to children. And prohibiting non-obscene nude or
sexually explicit images is incompatible with the
Court's First Amendment jurisprudence on proscribed
speech. Miller v. California, 413 U.S. at 27 (holding
that no one can be prosecuted for showing obscene
materials unless the materials depict "patently
offensive 'hard core' sexual conduct specifically defined
by the regulating state law, as written or construed").
108a

Compare Ferber to Ashcroft v. Free Speech
Coalition, 535 U.S. 234 (2002). In Free Speech
Coalition, the Supreme Court examined a statute that

prohibited sexually explicit images that purported to
depict minors, but were produced without any children.
Id. at 239. By its terms, the Court noted, the statute
criminalized Renaissance paintings depicting scenes
from classical mythology and movies, "filmed without
any child actors, if a jury believes an actor 'appears to
be' a minor engaging in 'actual or simulated...sexual
intercourse."' Id. at 241. Neither involves actual
children, so no children are harmed in producing the
images. Id. Still, Congress found "those materials pose
a harm to children because they may be used to goad
children into sexual activity and they may arouse
pedophiles. Id. Yet these proposed harms, unlike those
justifying the proscription in Ferber, spring from the
content – rather than the production-of the images. Id.
at 242. What's more, pedophiles may use "cartoons,
video games, and candy [to lure children,] yet we would
not expect those to be prohibited because they can be
misused." Id. at 251. The Court struck down the
statute because "[t]he mere tendency of speech to
encourage unlawful acts is not sufficient reason for
banning it.'' Id. at 253.
Ferber and Free Speech Coalition thus illustrate
how narrowly the Supreme Court defines unprotected
speech and compelling government interests, which
does nothing to save the broadly drafted statute here.
Continuing to insist that the Non-consensual
Dissemination statute targets revenge porn, though,
the State makes unsubstantiated claims about the
109a

effects of the targeted speech. Revenge porn, the State
claims, "creates in its victims a pervasive fear of
unlawful violence,...causes significant emotional
distress...,and can pose serious physical risks,
including suicide,...attacks by third parties who view
the disseminated images[, and i]t has been used to
coerce victims to endure domestic violence, rape, and
unwilling participation in the sex trade." State's
Response at 17. No source is cited to substantiate the
existence and extent of these dangers, though. The
claims are little more than speculation. The State has
thus not shown "an 'actual problem' in need of solving"
and the need to curtail free speech to actually solve the
identified problem. Brown v. Entertainment Merchants
Ass'n, 564 U.S. 786, 799 (2011). Legislative and
academic predictions of harm do not show a compelling
government interest; only unambiguous proof will
suffice. Id. at 799-800.
Even if what the State claims is true – many
who see the prohibited images will be driven to break
the law – that's not a compelling reason to ban
dissemination of the images. Remember, the claim that
virtual child pornography only "whets the appetites of
pedophiles and encourages them to engage in illegal
conduct," was – even if true – insufficient justification
for a statute. Free Speech Coalition, 535 U.S. at 253.
Same here. No one is harmed in the making of the
images. And if someone is harmed in their
dissemination, then Illinois already has laws punishing
intimidation, extortion, domestic violence, sexual
assault, eavesdropping, and the like.
Another problem with the State's claim that the
110a

Non-consensual Dissemination statute targets revenge
porn is that no illicit motive is required to violate the
statute. Remember the fate of the cross burning
statute in Black? 538 U.S. at 365-66 Motive matters
when the government seeks to suppress any speech of
any kind. Yet the statute here wholly disregards
motive. So revenge porn – as it's commonly understood
– is but a small part of the speech targeted by the
statute.
Consider actions punishable by the Nonconsensual Dissemination statute. Here, for example,
Ms. Austin is being prosecuted for sharing pictures she
lawfully received to defend herself from slander. She
could also be prosecuted, the State contended, for
showing Elizabeth's husband the pictures to inform
him of the affair. Where is the government's compelling
interest in restricting speech to permit slander and to
shield extramarital affairs?
Ponder, too, the artistic implications. Those racy
pictures Grandpa drew of Grandma discussed above?
The State argued that disseminating the drawings –
including selling them as part of the estate sale – may
violate the statute. Even if Grandpa was Pablo Picasso
or – as in the dissemination of the secretly and
privately created Helga Paintings – Andrew Wyeth.
On the other hand, what if a statute prohibited
dissemination – whether by word of mouth or the
Internet – of a person's past sexual promiscuity
(President Clinton), criminal record (Pee-wee
Hermann), racist (Paula Deen) or sexist (Sen. Al
Franken) comments, radical political views (Alger
111a

Hiss), or reputation for dishonesty (President Nixon)?
Millions have suffered embarrassment, humiliation,
job loss, and social ostracism when their secrets got
out, but the First Amendment protects the right to
truthfully spread those secrets, even if the subject isn't
already famous. The government, likewise, has no
compelling interest in shielding those secrets from
employers and neighbors. How is revenge porn any
different? Because it is pictorial and thus more
convincing than a whisper?
By not also outlawing oral or typewritten
dissemination of private secrets, however, the Nonconsensual Dissemination statute is underinclusive,
which belies its claimed justifications. In Brown, 564
U.S. at 789, the state banned children from purchasing
violent video games. The state claimed the ban served
a compelling interest in preventing the harm caused to
minors by violent video games. Id. at 799. But the state
didn't ban oft-violent "Saturday morning cartoons, the
sale of games rated for young children, or the
distribution of pictures of guns." Id. at 801-02. That
alone was sufficient to defeat the statute because
"[u]nderinclusiveness raises serious doubts about
whether the government is in fact pursuing the
interest it invokes, rather than disfavoring a particular
speaker or viewpoint." Id. at 802.
The same applies to the statute here. If the
government has a compelling interest in prohibiting
the dissemination of nude or sexually explicit images
by one party in a relationship, then the government
should also prohibit that party from orally describing
– be it bragging or belittling – the other partner's nude
112a

image or their sexual activities together. Words are,
after all, an audible depiction.
The State thus offers no compelling justification
for the Non-consensual Dissemination statute.
b. Is The Statute Narrowly Tailored?
Content-based speech restrictions must also be
narrowly tailored to serve the government's compelling
interest. Reed, 135 S.Ct. at 2231. Turning the
requirement on its head, the State claims the Nonconsensual Dissemination statute's overinclusiveness
supports a finding that the statute is narrowly tailored.
For example, the State discounts the need for a
motive element because requiring proof that "the
defendant intended to cause distress to his victim
would leave unprotected victims harmed by
perpetrators motivated by a desire to entertain, to
make money, or to gain notoriety." State's Response at
18. There are two problems with that claim. First, the
State presumes the person depicted in the prohibited
image is harmed, but the statute requires no such
showing. After all, Paris Hilton's career only got better
after her sexually explicit tapes showed up on the
Internet. So by not requiring injury, the statute chills
speech where no demonstrable or proven harm occurs.
In this way, the statute is overinclusive – and thus not
narrowly tailored – because it's preventing speech that
doesn't serve the compelling interest asserted. Brown,
564 U.S. at 804. Second, as in the numerous examples
above, the statute also punishes certain artistic
expression and innocent spouses. In Black, 538 U.S. at
113a

365-66, the Klan could not be punished for burning a
cross at one of its rallies even if a third party
inadvertently stumbled across the scene and was
insulted or became fearful; the Klan only violated the
statute when it burned the cross with the specific
intent to intimidate a third party. Motive mattered
because it differentiated between protected speech and
speech with illicit purpose – and the same speech can
be both depending on the motivation. Id. at 366. Again,
the statute is overinclusive – and thus not narrowly
tailored – because it lacks an illicit motive element.
The State also argues that the Non-consensual
Dissemination statute cannot serve the government's
compelling interest if limited to offenses only by
current and former intimate partners. State's Response
at 19. Curious, since the State relies so heavily on
revenge porn elsewhere only to now discard this, the
central feature of revenge porn. The State is right,
though: "Friends, co-workers, and strangers can inflict
just as much harm by publicly disseminating private
sexual images." Id. But that assertion only highlights
another problem with the statute – its' presumption of
privacy.
Both the State and the Non-consensual
Dissemination statute implicitly presume the person
depicted intended the image to remain private. But
conviction can occur where the defendant "obtains the
image under circumstances in which a reasonable
person would know or understand that the image was
to remain private." 720 ILCS 5/11-23.5(b)(2)(emphasis
added). This is rife with problems.
114a

One, the statute requires the defendant to
speculate on the inner thoughts of another – "I wonder
... did she want me to keep this between us?" Guessing
wrong can result in three years in prison.
Two, the statute requires no showing the person
depicted actually wanted the image to remain private;
all that matters is whether a reasonable person would
believe they wanted it to remain private. This, in turn,
leads to the default conclusion that of course they
wanted it to remain private, because what reasonable
person wants their naked pictures posted all over the
Internet?
Three, the statute presumes a privacy intent
where privacy cannot reasonably be expected.
Reasonable expectations of privacy are thoroughly
analyzed in Fourth Amendment jurisprudence, as is
the third-party rule. Under the third-party rule,
someone who shares information with a third party
gives up any expectation of privacy in the shared
information regardless of whether she intended the
third party to keep the secret. Carpenter v. United
States, 201 L. Ed. 2d 507, 523-24 (2018). Applied here,
when a girlfriend texts a nude selfie to a third party –
her boyfriend – she gives up all expectations of privacy
in the images. And if she cannot reasonably expect that
the image remain private, then didn't the act of
sharing it in the first place demonstrate she never
intended the image to remain private?
The presumption of privacy thus leads to
application of the statute where no actual intention of
privacy exists. As with the presumption of harm and
115a

absence of an illicit motive element, this means the
statute is overinclusive and thus not narrowly tailored
to serve only the government's compelling interest.
Brown, 564 U.S. at 804. Nor is the overinclusiveness in
combating the government's claimed compelling
interest cured by the underinclusiveness of the speech
targeted by the Non-consensual Dissemination statute.
"Legislation such as this, which is neither fish nor fowl,
cannot survive strict scrutiny." Id. at 805.
The exemptions, however, are far and away the
greatest concern with the Non-consensual
Dissemination statute. Remember, four activities are
exempt from the speech criminalized by 720 ILCS 5/1123.5(b). Those activities include dissemination for a
lawful public purpose, 720 ILCS 5/11-23.5(c)(4), and
dissemination of images involving voluntary exposure
in public or a commercial setting. 720 ILCS 5/1123.5(c)(3). Keep in mind, though, the exemptions are
affirmative defenses. So unless the State's evidence
raises the issue, the defendant must present evidence
to raise the affirmative defense before the burden
shifts back to the State to disprove the affirmative
defense by proof beyond a reasonable doubt. People v.
Reddick, 123 Ill.2d 184, 195-96 (1988).
The Non-consensual Dissemination statute thus
permits prosecution and imprisonment for
disseminating for any reason whatsoever any nude or
sexually explicit image. The State can prosecute
someone for disseminating prohibited images for a
lawful public purpose – like publishing pictures of a
politician and his mistress – and it's the speaker's
obligation to present evidence that the dissemination
116a

was for a lawful public purpose. Woodward and
Bernstein beware. Ms. Austin beware, too, because it's
left to a jury to decide whether publicly defending
yourself from public slander serves a lawful public
purpose.
Scarier still, prosecution is also possible for
disseminating any picture or video depicting nudity,
including a clipping from Playboy Magazine or any one
of countless movies or programs broadcast on Netflix
that depict a bare female breast. Keep in mind, it's the
speaker's – not the government's – burden to present
at least some evidence that the depiction was the
result of (1) voluntary exposure (2) in a public or
commercial setting. Put another way, the statute
presumes all nude and sexually explicit images –
including Hollywood movies and famous works of art –
are subject to prosecution, and it's the defendant's
burden to prove otherwise.
Using affirmative defenses to avoid broad
application of the Non-consensual Dissemination
statute – and thereby avoid restricting protected
speech – is fraught with peril because it chills speech.
In Free Speech Coalition, 535 U.S. at 255, the
government defended the statute against an
overbreadth challenge by arguing the affirmative
defense in the statute merely shifted to the speaker the
burden of proving his speech was not unlawful. That
burden shifting, the Court wrote, "raises serious
constitutional difficulties" because it commences only
"after prosecution has begun, and the speaker must
himself prove, on pain of a felony conviction, that his
conduct falls within the affirmative defense." Id. And
117a

proving – or even presenting sufficient evidence to
raise – the affirmative defense is no trivial matter:
"Where the defendant is not the producer of the work,
he may have no way of establishing the identity...of the
actors" or the circumstances under which the
prohibited images were created. Id.
Same here. How can anyone who comes into
possession of a nude or sexually explicit image
determine the circumstances under which it was made,
particularly where the statute already implicitly
presumes privacy? Don't forget the movie The Blair
Witch Project, which was successful, in large part,
because it so realistically depicted a homemade movie.
Imagine trying to prove that it wasn't homemade. Most
speakers will never take the chance, preferring to "selfcensor rather than risk the perils of trial." Ashcroft v.
ACLU, 542 U.S. 656, 670-71 (2004). That chills speech.
Black, 538 U.S. at 365 (finding such considerations
relevant when determining whether protected speech
is chilled).
Nor can the State be counted on to narrowly
enforce the Non-consensual Dissemination statute to
avoid these pitfalls. To the contrary, the State has, at
every turn, urged a broad reading of the statute and its
authority under the statute. Even were that not the
case, though, "the First Amendment protects against
the Government; it does not leave us at the mercy of
noblesse oblige. [Courts cannot] uphold an
unconstitutional statute merely because the
Government promised to use it responsibly." Stevens,
559 U.S. at 480.
118a

So the Non-consensual Dissemination statute
restricts an entire category of protected speech – nonobscene nude and sexually explicit depictions – because
it resembles revenge porn. But "[t]he [State] may not
suppress lawful speech as the means to suppress
unlawful speech. Protected speech does not become
unprotected merely because it resembles the latter.
The Constitution requires the reverse." Free Speech
Coalition, 535 U.S. at 255.
The Non-consensual Dissemination statute, 720
ILCS 5/11- 23.5(b), thus violates the First Amendment
of the United States Constitution and Article I, § 4 of
the Illinois Constitution of 1970 and is facially
unconstitutional.
c. Can The Court Avoid A Constitutional Decision?
Unfortunately, the court cannot construe the
Non-consensual Dissemination statute to preserve its
constitutional validity. A court "may impose a limiting
construction on a statute only if it is 'readily
susceptible' to such a construction.'' Stevens, 559 U.S.
at 481. Yet nothing about the statute here can be
limited to avoid the constitutional pitfalls. Sure,
disseminate can be construed more broadly rather than
as the State insists, but that does nothing to avoid the
statute's infringement on artistic speech and an entire
category of protected speech. Nor can the court strike
altogether the inclusion of drawings, paintings,
sculptures, and similar art in the statutory definition
of images, which was expanded in the legislative
process to include "depictions and portrayals."
119a

Nor may courts rewrite legislation to bring it in
constitutional compliance; that's the General
Assembly's exclusive domain. Id. And narrowing the
Non-consensual Dissemination statute's scope requires
significant re-writing: an illicit intent element; a
requirement that the intent of privacy be proven rather
than presumed; an actual showing of harm; and
moving the affirmative defenses into the elements
required to be charged and proven.
The court thus has no means of preserving the
validity of the Non-consensual Dissemination statute.
III. Conclusion
Lives are all too often ruined by nine simple
words: It seemed like a good idea at the time. Caught
up in the whirlwind of love, couples often engage in
behavior they soon regret, like making and sharing
nude or sexually explicit images. People are hurt and
lives sometimes ruined when those images become
public. The Non-consensual Dissemination statute here
– more precisely 720 ILCS 5/11- 23.5(b) – laudably
tries to prevent those bad consequences. But a laudable
goal is not necessarily a compelling one, and the
statute unnecessarily restricts protected speech by
restricting the dissemination of constitutionally
protected nude and sexually explicit images. The
statute is thus an unconstitutional content-based
restriction of speech. Because Ms. Austin cannot be
prosecuted for violating an unconstitutional statute,
her Motion to Dismiss is
GRANTED.
120a

IT IS SO ORDERED.
DATED this 8th day of August, 2018.
/s/
JOEL D. BERG, Judge

121a

APPENDIX C
West’s Smith-Hurd Illinois Compiled Statutes
Annotated Chapter 720. Criminal Offenses Criminal
Code Act 5. Criminal Code of 2012 (Refs & Annos) Title
III. Specific Offenses Part B. Offenses Directed Against
the Person Article 11. Sex Offenses (Refs & Annos)
Subdivision 20. Pornography Offenses
720 ILCS 5/11-23.5
5/11-23.5. Non-consensual dissemination of private
sexual images
Effective: June 1, 2015
Currentness
§ 11-23.5. Non-consensual dissemination of private
sexual images.
(a) Definitions. For the purposes of this Section:
“Computer”, “computer program”, and “data”
have the meanings ascribed to them in Section 17-0.5
of this Code.
“Image” includes a photograph, film, videotape,
digital recording, or other depiction or portrayal of an
object, including a human body.
“Intimate parts” means the fully unclothed,
partially unclothed or transparently clothed genitals,
122a

pubic area, anus, or if the person is female, a partially
or fully exposed nipple, including exposure through
transparent clothing.
“Sexual act” means sexual
masturbation, or sexual activity.

penetration,

“Sexual activity” means any:
(1) knowing touching or fondling by the victim or
another person or animal, either directly or
through clothing, of the sex organs, anus, or
breast of the victim or another person or animal
for the purpose of sexual gratification or
arousal; or
(2) any transfer or transmission of semen upon
any part of the clothed or unclothed body of the
victim, for the purpose of sexual gratification or
arousal of the victim or another; or
(3) an act of urination within a sexual context;
or
(4) any bondage, fetter, or sadism masochism; or
(5) sadomasochism abuse in any sexual context.
(b) A person commits non-consensual dissemination of
private sexual images when he or she:
(1) intentionally disseminates an image of
another person:
123a

(A) who is at least 18 years of age; and
(B) who is identifiable from the image
itself or information displayed in connection
with the image; and
(C) who is engaged in a sexual act or
whose intimate parts are exposed, in whole or in
part; and
(2) obtains the image under circumstances in
which a reasonable person would know or
understand that the image was to remain
private; and
(3) knows or should have known that the person
in the image has not consented to the
dissemination.
(c) The following activities are exempt from the
provisions of this Section:
(1) The intentional dissemination of an image of
another identifiable person who is engaged in a
sexual act or whose intimate parts are exposed
when the dissemination is made for the purpose
of a criminal investigation that is otherwise
lawful.
(2) The intentional dissemination of an image of
another identifiable person who is engaged in a
sexual act or whose intimate parts are exposed
when the dissemination is for the purpose of, or
in connection with, the reporting of unlawful
124a

conduct.
(3) The intentional dissemination of an image of
another identifiable person who is engaged in a
sexual act or whose intimate parts are exposed
when the images involve voluntary exposure in
public or commercial settings.
(4) The intentional dissemination of an image of
another identifiable person who is engaged in a
sexual act or whose intimate parts are exposed
when the dissemination serves a lawful public
purpose.
(d) Nothing in this Section shall be construed to impose
liability upon the following entities solely as a result of
content or information provided by another person:
(1) an interactive computer service, as defined in
47 U.S.C. 230(f)(2);
(2) a provider of public mobile services or private
radio services, as defined in Section 13-214 of
the Public Utilities Act; or
(3) a telecommunications network or broadband
provider.
(e) A person convicted under this Section is subject to
the forfeiture provisions in Article 124B of the Code of
Criminal Procedure of 1963.
(f) Sentence. Non-consensual dissemination of private
sexual images is a Class 4 felony.
125a

Credits
Laws 1961, p. 1983, § 11-23.5, added by P.A. 98-1138,
§ 5, eff. June 1, 2015.
Notes of Decisions (14)
720 I.L.C.S. 5/11-23.5, IL ST CH 720 § 5/11-23.5
Current through P.A. 101-622. Some statute sections
may be more current, see credits for details.

126a

